No. 19In the

Supreme Court of the United States
JUDGE H. STEPHENS WINTERS,
JUDGE CARL V. SHARP, JUDGE BENJAMIN
JONES, JUDGE J. WILSON RAMBO, AND
JUDGE FREDERIC C. AMMAN,
Petitioners,
v.
STANLEY R. PALOWSKY, III, INDIVIDUALLY
AND ON BEHALF OF ALTERNATIVE
ENVIRONMENTAL SOLUTIONS, INC.,
Respondents.
On Petition for Writ of Certiorari to the
Supreme Court of Louisiana

PETITION FOR A WRIT OF CERTIORARI

Jon K. Guice
Justin N. Myers
Hammonds, Sills,
A dkins & Guice, LLP
1881 Hudson Circle
Monroe, LA 71201
(318) 324-0101

Richard A. Simpson
Counsel of Record
K atelyn B. Cramp
Wiley Rein LLP
1776 K Street, N.W.
Washington, D.C. 20006
(202) 719-7314
rsimpson@wiley.law

Counsel for Petitioners
February 3, 2020
292833

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. This Court is the final arbiter of the content of federal
law. Louisiana has adopted the federal law of judicial
immunity as its own state law and views decisions of this
Court as authoritative. Does this Court have jurisdiction
under 28 U.S.C. § 1257(a) to review a decision of the
Louisiana Supreme Court applying the substance of
federal law to determine whether state court judges are
entitled to judicial immunity?
2. In Forrester v. White, 484 U.S. 219 (1988), this Court
held that judicial immunity does not apply where a judge
performs an administrative function. Appellate (and trial)
courts have consistently held that this exception does
not apply to acts performed in connection with pending
cases. Here, a litigant alleges that he was disadvantaged
in his pending case because the defendant judges aided or
concealed a law clerk’s destruction of court records. Does
judicial immunity apply?

ii
RULE 14(b) STATEMENT
The parties in the Louisiana Supreme Court were:
Judge H. Stephens Winters, Judge Carl V. Sharp, Judge
Benjamin Jones, Judge J. Wilson Rambo, Judge Frederic
C. Amman, and Allyson Campbell, as respondents, and
Stanley R. Palowsky, III, individually and on behalf of
Alternative Environmental Solutions, Inc., as applicantplaintiff.
The following is a list of all directly related proceedings:
• Palowsky v. Campbell, Nos. 2018-C-1105, 2018-C-1115
(La.) (opinion issued and judgment entered June 26,
2019; application for rehearing denied Sept. 6, 2019).
• Palowsky v. Campbell, No. 2016 CA 1221 (La. Ct. App.)
(opinion issued and judgment entered Apr. 11, 2018;
application for rehearing denied June 4, 2018).
• Palowsky v. Campbell, No. 2015-2179 (La. Fourth
Judicial District Court, Ouachita Parish) (judgment
issued Dec. 11, 2015).
There are no additional proceedings in any court that
are directly related to this case.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
RULE 14(b) STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PERTINEN T CONSTIT U TIONA L A N D
STATUTORY PROVISIONS  . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . . . 7
I.

This case presents an important issue of first
impression and is an ideal vehicle for this Court
to confirm that it has jurisdiction to review
state court decisions voluntarily adopting
and applying federal law as state law. . . . . . . . . . 8
A. This case presents an important issue
of first impression regarding the scope
of this Court’s jurisdiction. . . . . . . . . . . . . . . 8

iv
Table of Contents
Page
B. This Court should confirm that it has the
power to review state court decisions
applying federal law as voluntarily
adopted state law.  . . . . . . . . . . . . . . . . . . . . 10
II. The decision below raises important questions
regarding the scope of the administrative
function exception to judicial immunity,
cannot be reconciled with this Court’s
precedents, and conflicts with decisions of
other appellate (and trial) courts.  . . . . . . . . . . . 19
A. The scope and purpose of judicial
immunity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
B. The decision below conf licts with
decisions of this Court.  . . . . . . . . . . . . . . . . 21
C. The decision below conflicts with decisions
of other appellate (and trial) courts.  . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

v
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
SU PREM E COU RT OF LOU ISI A NA ,
DATED JUNE 26, 2019 . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE COURT OF
APPEAL OF LOUISIANA, FIRST CIRCUIT,
DATED APRIL 11, 2018 . . . . . . . . . . . . . . . . . . . . . . 32a
APPENDIX C — TRANSCRIPT OF HEARING
OF T H E S TAT E OF LOU I SI A NA ,
PA R I S H O F O U A C H I T A , O F T H E
FOURTH JUDICIAL DISTRICT, DATED
NOVEMBER 5, 2015 . . . . . . . . . . . . . . . . . . . . . . . . 100a
APPENDIX D — DENIAL OF REHEARING
OF THE SUPREME COURT OF LOUISIANA,
DATED SEPTEMBER 6, 2019 . . . . . . . . . . . . . . .  110a

vi
TABLE OF CITED AUTHORITIES
Page
CASES:
Allen v. Zigler,
41 P.3d 1060 (Okla. Civ. App. 2001) . . . . . . . . . . . . . .  17
Anonymous v. Conn. Bar Examining Comm.,
CV94-0534160-S, 1995 WL 506660
(Conn. Aug. 17, 1995) . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Billups v. Scott,
571 N.W.2d 603 (Neb. 1997) . . . . . . . . . . . . . . . . . . . .  17
Blue Cross Blue Shield of Tex. v. Juneau,
114 S.W.3d 126 (Tex. App. 2003) . . . . . . . . . . . . . . . .  17
Book v. Tobin,
No. 3:04cv442, 2005 U.S. Dist. LEXIS 17275
(D. Conn. Aug. 16, 2005) . . . . . . . . . . . . . . . . . . . . . . . 26
Bradley v. Fisher,
80 U.S. (13 Wall.) 335 (1871) . . . . . . . . . . . . . . . . . 20, 23
Bradley v. United States,
84 F. App’x 492 (6th Cir. 2003) . . . . . . . . . . . . . . . . . . 14
Cashion v. State,
No. 01A01-9903-BC-00174, 1999 WL 722634
(Tenn. Ct. App. 1999) . . . . . . . . . . . . . . . . . . . . . . . . .  17
Churchill v. Univ. of Colo. at Boulder,
285 P.3d 986 (Colo. 2012)  . . . . . . . . . . . . . . . . . . . . . . 16

vii
Cited Authorities
Page
City of Bayou La Batre v. Robinson,
785 So. 2d 1128 (Ala. 2000)  . . . . . . . . . . . . . . . . . . . . 16
Clark v. Dussault,
878 P.2d 479 (Mont. 1994) . . . . . . . . . . . . . . . . . . . . . .  17
Cotton v. Banks,
872 N.W.2d 1 (Mich. Ct. App. 2015)  . . . . . . . . . . . 16-17
Crane v. Cedar Rapids & Iowa City Ry. Co.,
395 U.S. 164 (1969)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
D.L. v. Huck,
978 N.E.2d 429 (Ind. Ct. App. 2012) . . . . . . . . . . . . . 16
Daniel v. Safir,
135 F. Supp. 2d 367 (E.D.N.Y. 2001) . . . . . . . . . . . . . 24
DeFerro v. Coco,
719 F. Supp. 379 (E.D. Pa. 1989) . . . . . . . . . . . . . . . . 24
District of Columbia v. Pizzulli,
917 A.2d 620 (D.C. 2007)  . . . . . . . . . . . . . . . . . . . . . . 16
Doyle v. Camelot Care Ctrs., Inc.,
305 F.3d 603 (7th Cir. 2002) . . . . . . . . . . . . . . . . . . . . 25
Eades v. Sterlinske,
810 F.2d 723 (7th Cir. 1987) . . . . . . . . . . . . . . . . . . . . 24

viii
Cited Authorities
Page
Fairport, Painesville & Eastern R.R. Co. v.
Meredith,
292 U.S. 589 (1934) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fariello v. Campbell,
860 F. Supp. 54 (E.D.N.Y. 1994) . . . . . . . . . . . . . . . . . 24
Ford v. Kenosha Cty.,
466 N.W.2d 646 (Wis. 1991) . . . . . . . . . . . . . . . . . . . .  17
Forrester v. White,
484 U.S. 219 (1988)  . . . . . . . . . . . . . . . . . . . . . . . passim
Gallas v. Supreme Court of Pa.,
211 F.3d 760 (3d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 25
Gilvary v. Cuyahoga Valley Ry. Co.,
292 U.S. 57 (1934)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Hansen v. Kjellsen,
638 N.W.2d 548  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Harrison v. Roitman,
362 P.3d 1138 (Nev. 2015) . . . . . . . . . . . . . . . . . . . . . .  17
Howard v. Drapkin,
271 Cal. Rptr. 893 (Cal. Ct. App. 1990) . . . . . . . . . . . 16
In re Castillo,
297 F.3d 940 (9th Cir. 2002) . . . . . . . . . . . . . . . . . . . . 25

ix
Cited Authorities
Page
Jackson v. Houck,
181 F. App’x 372 (4th Cir. 2006) . . . . . . . . . . . . . . . . . 23
Jackson v. Pfau,
523 F. App’x 736 (2d Cir. 2013)  . . . . . . . . . . . . . . . . . 23
Jarvis v. Drake,
830 P.2d 23 (Kan. 1992)  . . . . . . . . . . . . . . . . . . . . . . . 16
Johnson v. Kegans,
870 F.2d 992 (5th Cir. 1989) . . . . . . . . . . . . . . . . . . . . 25
Kansas v. Carr,
136 S. Ct. 633 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Keller-Bee v. State,
138 A.3d 1253 (Md. 2016) . . . . . . . . . . . . . . . . . . . . . . 16
Kinney v. Clerk of Cal. Court
of Appeal Fourth Appellate Dist.,
No.: SACV 16-02197-CJC(KESx),
2017 WL 7735868 (C.D. Cal. Jan. 4, 2017) . . . . . . . . 25
Langella v. Cercone,
34 A.3d 835 (Pa. Super. Ct. 2011)  . . . . . . . . . . . . . . .  17
Little v. Hammond,
744 F. App’x 748 (3d Cir. 2018) . . . . . . . . . . . . . . . . . . 23
Louisville & Nashville R.R. Co. v. Layton,
243 U.S. 617 (1917) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

x
Cited Authorities
Page
Lythgoe v. Guinn,
884 P.2d 1085 (Alaska 1994) . . . . . . . . . . . . . . . . . . . . 16
Malina v. Gonzales,
994 F.2d 510 (5th Cir. 1993) . . . . . . . . . . . . . . . . . . . . . 5
Martinez v. Winner,
771 F.2d. 424 (10th Cir. 1985)  . . . . . . . . . . . . . . . . . . 25
Marullo v. N.T.R. Ltd.,
No. KC 93-969, 1996 WL 937018
(R.I. Super. Ct. Dec. 4, 1996) . . . . . . . . . . . . . . . . . . .  17
Merrell Dow Pharms., Inc. v. Thompson,
478 U.S. 804 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
Michigan v. Long,
463 U.S. 1032 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Mink v. Arizona,
No. CV09–2582 PHX DGC, 2010 WL 2690633
(D. Ariz. July 6, 2010) . . . . . . . . . . . . . . . . . . . . . . . . . 25
Mireles v. Waco,
502 U.S. 9 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . passim
Mitchell v. McBryde,
944 F. 2d 229 (5th Cir. 1991) . . . . . . . . . . . . . . . . . . . . 24
Moore v. Chesapeake & Ohio Ry. Co.,
291 U.S. 205 (1934)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 12

xi
Cited Authorities
Page
Moore v. Cleveland,
No. 100069, 2014 WL 1327910
(Ohio Ct. App. Apr. 3, 2014) . . . . . . . . . . . . . . . . . . . . 12
Nystedt v. Nigro,
700 F.3d 25 (1st Cir. 2012)  . . . . . . . . . . . . . . . . . . . . . 25
Osborn v. Bank of the U.S.,
22 U.S. 738 (1824) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Paige K.B. by Peterson v. Molepske,
580 N.W.2d 289 (Wis. 1998) . . . . . . . . . . . . . . . . . . . .  17
Palowsky v. Cork,
Docket No. 13-2059 . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 6
Parker v. Dodgion,
971 P.2d 496 (Utah 1998)  . . . . . . . . . . . . . . . . . . . . . .  17
Perez v. Gamez,
No. 1:13–CV–01552, 2013 WL 6147935
(M.D. Penn. Nov. 22, 2013) . . . . . . . . . . . . . . . . . . . . . 25
Pierson v. Ray,
386 U.S. 547 (1967) . . . . . . . . . . . . . . . . . . . . . . . . 14, 20
Pulliam v. Allen,
466 U.S. 522 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Rodriguez v. Weprin,
116 F.3d 62 (2d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . . 24

xii
Cited Authorities
Page
Saum v. Savage,
No. 2:13–CV–00872, 2014 WL 3105010
(S.D. Ohio July 7, 2014) . . . . . . . . . . . . . . . . . . . . . . . . 25
St. Louis, Iron Mountain & S. Ry. Co. v. Taylor,
210 U.S. 281 (1908)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
Stump v. Sparkman,
435 U.S. 349 (1978)  . . . . . . . . . . . . . . . . . . . . . 20, 21, 23
Taggart v. State,
822 P.2d 243 (Wash. 1992)  . . . . . . . . . . . . . . . . . . . . .  17
Thomas v. Wilkins,
61 F. Supp. 3d 13 (D.D.C. 2014) . . . . . . . . . . . . . . . . . 25
Thompson v. Duke,
882 F.2d 1180 (7th Cir. 1989) . . . . . . . . . . . . . . . . . . . 25
Thornton v. Pietrzak,
102 N.E.3d 1139 (Ind. Ct. App. 2019) . . . . . . . . . . . . 16
Tipton v. Atchison, Topeka & Santa Fe Ry. Co.,
298 U.S. 141 (1936)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Verlinden B.V. v. Central Bank of Nigeria,
461 U.S. 480 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Withers v. Schroeder,
819 S.E.2d 394 (Ga. 2018) . . . . . . . . . . . . . . . . . . . . . . 16

xiii
Cited Authorities
Page
Yanero v. Davis,
65 S.W.3d 510 (Ky. 2001) . . . . . . . . . . . . . . . . . . . . . . . 16
STATUTES AND OTHER AUTHORITIES:
U.S. Const. art. III, § 2 . . . . . . . . . . . . . . . . . . . . . . . . . 2, 9
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 18, 19
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 9, 12
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 23
49 U.S.C. § 20301  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Federal Court Improvements Act of 1996, § 309 . . . . . 14
16B Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 4031
(3d ed. 1998 & Supp. 2019) . . . . . . . . . . . . . . . . . . . . . . 9

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Judge H. Stephens Winters, Judge Carl
V. Sharp, Judge Benjamin Jones, Judge J. Wilson Rambo,
and Judge Frederic C. Amman of the Fourth Judicial
District of Louisiana (the “Judges”) respectfully submit
this petition for a writ of certiorari to review the judgment
of the Louisiana Supreme Court.
OPINIONS BELOW
The decision of the Louisiana Supreme Court has not
yet been published in the regional reporter, but is reported
at 2019 WL 2896746 and is reproduced at App. 1a-31a. The
decision of the Court of Appeal is reported at 249 So. 3d
945 (La. Ct. App. 2018) and is reproduced at App. 32a-99a.
The transcript of the oral decision of the district court is
reproduced at App. 100a-09a.
JURISDICTION
The Louisiana Supreme Court entered its judgment
on June 26, 2019 (App. 1a-31a) and denied the Judges’
timely application for rehearing on September 6, 2019
(App. 110a-11a). By Order dated November 26, 2019,
Justice Alito granted the Judges’ timely application for
an extension of time to file this petition to February 3,
2020. The Judges contend that this Court has jurisdiction
pursuant to 28 U.S.C. § 1257(a) to review the final decision
of the Louisiana Supreme Court. Issue 1 of this petition
addresses the jurisdictional issue.

2
PERTINENT CONSTITUTIONAL
AND STATUTORY PROVISIONS
Article III, § 2 of the United States Constitution
provides in relevant part: “The judicial power shall
extend to all cases, in law and equity, arising under this
Constitution, the laws of the United States, and treaties
made, or which shall be made, under their authority . . . .”
U.S. Const. art. III, § 2.
28 U.S.C § 1257(a) provides:
Final judgments or decrees rendered by the
highest court of a State in which a decision
could be had, may be reviewed by the Supreme
Court by writ of certiorari where the validity
of a treaty or statute of the United States is
drawn in question or where the validity of
a statute of any State is drawn in question
on the ground of its being repugnant to the
Constitution, treaties, or laws of the United
States, or where any title, right, privilege, or
immunity is specially set up or claimed under
the Constitution or the treaties or statutes of,
or any commission held or authority exercised
under, the United States.
28 U.S.C. § 1331 provides: “The district courts shall
have original jurisdiction of all civil actions arising under
the Constitution, laws, or treaties of the United States.”

3
STATEMENT OF THE CASE
1. Plaintiff Stanley R. Palowsky, III (“Palowsky”),
individually and on behalf of Alternative Environmental
Solutions, Inc., initially brought suit against Allyson
Campbell, a law clerk in Louisiana’s Fourth Judicial District.
App. 33a-34a. Later, by way of a First Supplemental,
Amended, and Restated Petition for Damages (the “Amended
Petition”), Palowsky added the Judges as defendants. Id.
The Amended Petition alleges that Palowsky was a
party to a case styled Palowsky v. Cork, Docket No. 132059 (the “Cork case”), pending in the Fourth Judicial
District. App. 73a. In the Cork case, Palowsky asserted
claims against W. Brandon Cork, who was a 50% partner
with Palowsky in Alternative Environmental Solutions,
Inc. Id. Palowsky alleges that for many years Campbell
has engaged in a practice of destroying and concealing
documents filed in cases pending in the Fourth Judicial
District. App. 69a-72a. He further alleges that the Judges
aided or concealed Campbell’s misconduct. Id.
According to Palowsky, he became “the most recent
victim of Defendant Campbell’s malicious and intentional
destruction of documents and Defendant Judges’ cover
up of same.” App. 73a. In particular, Palowsky alleged
that Campbell destroyed, withheld, or concealed multiple
court documents filed in the Cork case, all with the goal of
injuring Palowsky in the litigation by giving his litigation
opponent an unfair advantage. App. 74a-77a. He alleges
that the Judges condoned and covered up Campbell’s
actions.1 App. 77a, 82a, 86a-87a.
1. Palowsky also alleged that Campbell engaged in a payroll
fraud scheme, which the Judges allegedly tolerated and concealed.

4
Palowsky asserted claims against Campbell and the
Judges for violation of his “constitutional rights to due
process of law and access to courts . . . . ” App. 88a. He
expressly did not seek relief under any federal law. App.
89a. Finally, anticipating the defense of judicial immunity,
the Amended Petition alleged that the Judges “were
acting in an administrative capacity when they committed
the acts and/or omissions set forth herein . . . .” App. 63a.
2. The Judges filed an exception of no cause of action
to the Amended Petition, which is the state procedural
equivalent of a motion to dismiss in federal court,
asserting that they were entitled to judicial immunity. 2
At the hearing on the exception, counsel for Palowsky
argued that this Court’s decision in Forrester v. White,
484 U.S. 219 (1988), mandated denial of the exception
because the Judges were performing an administrative,
rather than a judicial, function when they took the actions
at issue.
In an oral decision, the trial court held that the
administrative function exception to judicial immunity
App. 64a-68a. The trial court held that Palowsky lacked standing to
assert any claim based on alleged wrongful conduct other than as
to the Cork case, and the Court of Appeal affirmed. App. 21a-23a.
That ruling was not at issue in the Louisiana Supreme Court. As a
result, the only issue presented here is whether the judicial immunity
defense applies to Palowsky’s claim against the Judges based on
the alleged destruction and concealment of court documents in the
Cork case.

2. The Judges also filed a motion to strike certain allegations
of the Amended Petition as impertinent and scandalous. App. 1a2a. That motion is not at issue here.

5
did not apply. Citing Malina v. Gonzales, 994 F.2d 510
(5th Cir. 1993), the trial court relied on the four-factor
test developed by the Fifth Circuit under federal law
for determining whether a judge’s actions are judicial
in nature. Those factors are: (1) whether the precise act
complained of is a normal judicial function; (2) whether
the acts occurred in the courtroom or appropriate adjunct
spaces such as a judge’s chambers; (3) whether the
controversy centered around a case pending before the
court; and (4) whether the acts arose directly out of a visit
to the judge in his official capacity. App. 104a. Based on
an analysis of those factors, the trial court held that the
Judges were entitled to absolute judicial immunity. App.
105a. The trial court also held that Campbell was entitled
to judicial immunity. App. 106a-109a.
3. On appeal, the Court of Appeal noted that Louisiana’s
“jurisprudence on judicial immunity mirrors the federal
doctrine.” App. 50a. The Court of Appeal discussed in
detail this Court’s judicial immunity decisions, including
the distinction between judicial and administrative
functions addressed in Forrester. App. 45a-50a.
Turning to the specifics of the Amended Petition, the
Court of Appeal concluded that “[t]he allegations against
the judges amount to a failure to properly supervise Ms.
Campbell in the handling of cases before the court and
the failure to reveal her actions once discovered.” App.
57a. It then held that judicial immunity applied because
“[l]ooking at the nature and function of the actions of the
Judges, and not the acts themselves, the Judges’ actions
encompass the supervision of and working with a law clerk
on cases before them.” Id.

6
The Court of Appeal also held, however, that the law
clerk, Campbell, was not entitled to judicial immunity.
App. 55a-56a. Two judges dissented as to the denial of
judicial immunity for Campbell. App. 92a-95a. A third
judge dissented as to the holding that the Judges were
entitled to judicial immunity. App. 96a-99a.
4. On discretionary review, the Louisiana Supreme
Court reversed the Court of Appeal’s judgment insofar
as it dismissed Palowsky’s claims against the Judges.
Applying this Court’s decision in Forrester, the majority
per curiam opinion reasoned that Palowsky’s allegations
regarding the Judges’ supervision and investigation of
the law clerk’s activities arose within the context of the
Judges’ administrative capacity, and not within their
judicial or adjudicative capacities. App. 2a-3a.
Of the five Louisiana Supreme Court justices who
wrote separate opinions, three dissented on the issue of
judicial immunity. Chief Justice Bernette Johnson stated
that the allegations against the Judges are “properly
classified as acts done in their judicial capacities.” App. 4a.
Justices Greg Guidry and Scott Crichton concluded that
the Judges’ actions were taken in their judicial capacities
because the actions related to the Cork case that was
pending in the court. App. 22a-23a, 25a-26a. In addition,
Justice Crichton underscored the conflict he perceived
between the majority’s holding and longstanding principles
of judicial immunity, including those established by this
Court. App. 25a. In denying rehearing, the Louisiana
Supreme Court was similarly divided 4-3. App. 110a-11a.
Although the Louisiana Supreme Court was sharply
divided as to whether judicial immunity applies to

7
the Judges’ alleged actions, the opinions treated this
Court’s decisions as to the scope of judicial immunity as
authoritative. App. 1a-31a.
REASONS FOR GRANTING THE PETITION
This case presents two distinct issues, each of
which merits review. First, this Court has never
“constitutionalized” judicial immunity, meaning that the
Court has never held that due process requires the states
to provide for judicial immunity of state judges from state
law claims asserted against them. However, Louisiana
and many other states have not only adopted judicial
immunity as state law but also held that state law mirrors
and incorporates the federal law of judicial immunity.
Accordingly, Louisiana, and many other states, treat
this Court’s decisions regarding the scope and content of
the federal law of judicial immunity as authoritative as
to state law claims against judges. This case presents an
important issue of first impression: whether this Court
has jurisdiction to review state court decisions applying
federal law as the voluntarily adopted law of the state.
Second, this Court has repeatedly recognized the
importance of judicial immunity to the integrity and
independence of the administration of justice. In Forrester,
484 U.S. 219 (1988), this Court adopted a functional
approach to determining when a judge is acting in a
judicial capacity, and so entitled to judicial immunity, and
when a judge is acting in an administrative capacity, and
so not entitled to judicial immunity. The developing law in
lower courts has consistently held that judicial immunity
applies to acts taken in connection with a pending case.

8
The decision of the Louisiana Supreme Court conflicts
with these decisions by finding immunity inapplicable to
the Judges’ actions in the handling of cases pending before
them. If left undisturbed, the Louisiana Supreme Court
decision will create confusion in the law and undermine
the goals of judicial immunity by calling into question
what has been the developing bright line rule that judges
are absolutely immune from liability for acts taken in
connection with pending cases, so long as those acts are
not clearly outside the judge’s jurisdiction.
I.

This case presents an important issue of first
impression and is an ideal vehicle for this Court
to confirm that it has jurisdiction to review state
court decisions voluntarily adopting and applying
federal law as state law.
A.

This case presents an important issue of first
impression regarding the scope of this Court’s
jurisdiction.

This Court has never determined whether it has
jurisdiction to review a state court decision voluntarily
adopting and applying federal law as state law. Indeed,
as one commentator noted:
In a wide variety of settings, state courts may
adopt federal rules of decision voluntarily, even
though they would be free to apply independent
standards of state law. There is very little useful
definition of the Supreme Court’s jurisdiction to
review state [court] judgments that in fact have
been determined by voluntarily incorporated
federal rules.

9
16B Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure § 4031 (3d ed. 1998 & Supp. 2019).
The Constitution extends the judicial power of the United
States to cases “arising under the Constitution, the Laws
of the United States, and Treaties made, or which shall
be made, under their Authority . . . .” U.S. Const. art. III,
§ 2. This Court’s decision in Osborn v. Bank of the United
States, 22 U.S. 738 (1824), established that this Article III
judicial power sweeps extremely broadly to include any
federal issue raised by a case.
At the same time, this Court has construed the statute
giving the federal courts original jurisdiction over cases
“arising under” federal law, 28 U.S.C. § 1331, much more
narrowly, notwithstanding their use of the same “arising
under” language. Thus, this Court has unanimously
stated:
Although the language of § 1331 parallels
that of the “arising under” clause of Article
III, this Court never has held that statutory
“arising under” jurisdiction is identical to
Article III “arising under” jurisdiction. Quite
the contrary is true. . . . Article III “arising
under” jurisdiction is broader than federal
question jurisdiction under § 1331, and the
Court of Appeals’ heavy reliance on decisions
construing that statute was misplaced.
Verlinden B.V. v. Cent. Bank of Nigeria, 461 U.S. 480,
494−95 (1983). For various reasons, including this
dichotomy between the broad scope of “arising under”
jurisdiction under the Constitution versus the more
limited scope of the federal courts’ original jurisdiction,

10
state courts often decide issues of federal constitutional
and statutory law. There has never been any doubt that
this Court has jurisdiction to review those state court
decisions regarding federal law issues, extending to the
full extent of the Court’s Constitutional “arising under”
jurisdiction.
This case presents an issue that this Court has never
decided, namely whether this Court has jurisdiction to
review the decision of a state court where the state court
has voluntarily adopted federal law as the rule of decision.
The issue is an important one, as state courts often adopt
federal law, including as to the critically important issue
of the scope of judicial immunity. Absent the availability
of review by this Court, state court decisions applying
the substance of federal law could defeat the goals of
uniformity and consistency and generate confusion in
the law.
B. This Court should confirm that it has the power
to review state court decisions applying federal
law as voluntarily adopted state law.
Decisions regarding the Federal Safety Appliance
Act, 49 U.S.C. § 20301 (2018) (the “FSAA”), provide a
useful analogy regarding the scope of this Court’s power
to review state court decisions to that presented here.
The FSAA does not include any express private right of
action, and the federal courts have not found there to be
an implied private right of action. Several states have held,
however, that state law provides a remedy for violation of
the federal statute. This Court has permitted the states
to do so and has recognized in that regard that the states
have flexibility to define the elements and nature of the

11
claim and defenses, such as whether to recognize a defense
of contributory negligence or last clear chance. See, e.g.,
Crane v. Cedar Rapids & Iowa City Ry. Co., 395 U.S. 164
(1969); Tipton v. Atchison, Topeka & Santa Fe Ry. Co.,
298 U.S. 141 (1936); Fairport, Painesville & Eastern R.R.
Co. v. Meredith, 292 U.S. 589 (1934); Gilvary v. Cuyahoga
Valley Ry. Co., 292 U.S. 57 (1934).
At the same time, however, this Court has jurisdiction
to review state court determinations regarding the proper
meaning of the Act. St. Louis, Iron Mountain & S. Ry.
Co. v. Taylor, 210 U.S. 281 (1908). The rationale behind
this rule is obvious: “in no other manner can a uniform
construction of the statute laws of the United States be
secured, so that they shall have the same meaning and
effect in all the States of the Union.” 210 U.S. at 293; see
also Moore v. Chesapeake & Ohio Ry. Co., 291 U.S. 205,
214–15 (1934) (stating that, although district courts lack
§ 1331 jurisdiction to review state law claims resting on
the FSAA, the Supreme Court has jurisdiction to review
such claims).
This Court’s decision in Merrell Dow Pharmaceuticals,
Inc. v. Thompson, 478 U.S. 804 (1986), confirms that
Supreme Court jurisdiction extends to state law cases that
incorporate federal law. In Thompson, consumers brought
various state law claims in state court alleging that their
use of certain drugs caused birth defects. Plaintiffs
alleged, among other things, that the manufacturer
violated the labeling requirements of the Federal Food,
Drug and Cosmetic Act, and that the violation created
a “rebuttable presumption of negligence” and was a
proximate cause of the injuries suffered by the infants. 478
U.S. at 806. Although the parties agreed that federal law

12
does not provide a private cause of action for violation of
that Act, the defendant removed the case to federal court
on the theory that the question of federal law embedded
within the state cause of action gave rise to federal
question jurisdiction. Id. at 806.
This Court held that the mere presence of an
embedded federal law question within a state law cause of
action, on the specific facts of the case, was insufficient to
support a determination that the claim arose under federal
law for purposes of federal question jurisdiction under 28
U.S.C. § 1331. Id. at 813. Accordingly, the Court affirmed
the decision below that the case must be remanded to state
court. Id. at 817.
In doing so, however, this Court emphasized that
the limit on the original jurisdiction of federal district
courts did not negate this Court’s power to exercise its
jurisdiction to assure uniform interpretation of federal
law. The Court stated: “Petitioner’s concern about the
uniformity of interpretation, moreover, is considerably
mitigated by the fact that, even if there is no original
district court jurisdiction for these kinds of action[s],
this Court retains [the] power to review the decision of a
federal issue in a state cause of action.” Id. at 816; see also
Moore, 291 U.S. at 214 (“Questions arising in actions in
state courts to recover for injuries sustained by employees
in intrastate commerce and relating to the scope or
construction of the Federal Safety Appliance Acts are,
of course, federal questions which may appropriately be
reviewed [by] this Court.”) (citing Louisville & Nashville
R.R. Co. v. Layton, 243 U.S. 617, 619 (1917), St. Louis,
Iron Mountain & S. Ry. Co., 210 U.S. at 287.

13
The same reasoning underlying these decisions
supports this Court’s jurisdiction to review a state court
decision adopting and applying federal law of judicial
immunity as state law. Federal district courts do not have
jurisdiction to hear a case merely because the defendant
asserts a defense of judicial immunity. Cases asserting
only state law claims must be heard in state court, even
if the defendant asserts a judicial immunity defense as to
which the state courts have adopted federal law. But this
Court has the power to review a state court decision as
to the embedded issue of federal law.
Recognizing this Court’s jurisdiction over state
court decisions involving the application of federal law
regarding judicial immunity is essential to protecting
the uniform development of the immunity doctrine, which
goes to the very core of the independence of the judiciary.
As discussed in Section II below, a decision giving an
unduly narrow interpretation to the doctrine undermines
the critical goals it serves. On the other hand, an overly
expansive reading of the doctrine can immunize judicial
officials from liability for non-judicial acts or other conduct
clearly outside their jurisdiction for which they properly
are subject to liability. Erroneous decisions regarding the
scope of judicial immunity serve as precedents that can
lead other courts astray and create confusion in the law.
That is especially so when the erroneous decisions come
from a high-level appellate court, such as the Louisiana
Supreme Court.
This Court’s many decisions defining the scope of the
federal law of judicial immunity reflect the importance
of the doctrine, the need for careful definition of its
scope, and the necessity of uniformity of the law. E.g.,

14
Forrester, 484 U.S. 219 (1988) (adopting a functional
approach to determining the scope of judicial immunity
and distinguishing between judicial and administrative
functions); Mireles v. Waco, 502 U.S. 9 (1991) (judicial
immunity applied to judge who allegedly ordered police
to use excessive force in bringing an attorney to the
judge’s courtroom); Pulliam v. Allen, 466 U.S. 522 (1984)
(judicial immunity does not bar equitable relief)3; Stump
v. Sparkman, 435 U.S. 349 (1978) (holding that immunity
applies to “judicial acts” that do not fall clearly outside the
judge’s subject matter jurisdiction); Pierson v. Ray, 386
U.S. 547 (1967) (holding that judges acting within their
jurisdiction are immune from liability under the civil rights
statutes even if the actions violated the plaintiff’s federal
statutory or constitutional rights); Bradley v. Fisher,
80 U.S. (13 Wall.) 335–36 (1871) (adopting the common
law rule of absolute judicial immunity for judges seated
in all courts of general jurisdiction and distinguishing
between judicial acts committed “in excess of [a judge’s]
jurisdiction” and those committed in “clear absence of all
jurisdiction”).
Decisions of state courts as to the scope of judicial
immunity under federal law must be subject to review
for the same reasons that other decisions of state courts
3. The result in Pulliam was substantially changed by the
Federal Court Improvements Act of 1996, § 309. That Act amended
42 U.S.C. § 1983 to preclude injunctive relief against a judicial
officer unless a declaratory decree is violated or declaratory relief
is unavailable and precludes awards of attorneys’ fees and costs
against judges for acts taken in their judicial capacity, unless the
conduct is “clearly in excess” of the judge’s jurisdiction. Federal
Court Improvements Act of 1996, Pub. L. No. 104-317, § 309, 110
Stat. 3847, 3853.

15
regarding federal law issues are subject to review. The
importance of judicial immunity, combined with the need
for clear rules and uniformity, demand that this Court
have the power to review decisions of state courts that
have adopted federal law as the controlling state law for
decision. If a state decision unambiguously treats federal
case law as merely persuasive, but not authoritative, then
there is no need for this Court to review state decisions
regarding judicial immunity, as such decisions do not
create confusion in federal law or risk misleading other
courts regarding the scope of federal law.
On the other hand, when state courts voluntarily adopt
federal law as the law of the state, or treat federal and
state law as identical, then review by this Court of those
decisions must be available. Otherwise, state courts will
have the power to issue decisions purporting to decide
the content of federal law with no power in this Court to
correct any errors. Permitting such a system would be a
recipe for widespread confusion and inconsistency as to
the content of federal law.
Here, Louisiana has determined that its state law
of judicial immunity mirrors that of the federal law of
judicial immunity. The opinions in the Louisiana Supreme
Court decision below accordingly treated this Court’s
decisions as authoritative and controlling, as did the
lower state courts. Most notably, the Louisiana Supreme
Court interpreted and based its decision on the meaning
of this Court’s decision in Forrester regarding which
functions are judicial and which are administrative. And,
as discussed below, it did so in a way that departs from
and conflicts with the decisions of other appellate (and
trial) courts.

16
Louisiana is far from alone in treating decisions of this
Court on the scope of judicial immunity as authoritative
and binding. Indeed, without being comprehensive, each
of the following state court decisions applying the judicial
immunity doctrine has relied on this Court’s decision in
Forrester, with many treating it as controlling: City of
Bayou La Batre v. Robinson, 785 So. 2d 1128, 1132 (Ala.
2000) (quoting Mireles, 502 U.S. at 11, 12); Lythgoe v.
Guinn, 884 P.2d 1085, 1086–87 (Alaska 1994); Howard
v. Drapkin, 271 Cal. Rptr. 893, 907 (Cal. Ct. App. 1990)
(“It is the function of adjudication of an issue, the
decision[-]making function, which requires and is the
basis for judicial immunity. The decision of the United
States Supreme Court in [Forrester] is controlling on
that point[.]”); Churchill v. Univ. of Colo. at Boulder, 285
P.3d 986, 1001–02 (Colo. 2012); Anonymous v. Conn. Bar
Examining Comm., CV94-0534160-S, 1995 WL 506660,
at *2–4 (Conn. Aug. 17, 1995); District of Columbia v.
Pizzulli, 917 A.2d 620, 627–28 (D.C. 2007); Withers v.
Schroeder, 819 S.E.2d 394, 396–98 (Ga. 2018); Thornton
v. Pietrzak, 102 N.E.3d 1139, 1143–44 (Ind. Ct. App.
2019) (“In determining whether a person is entitled to
the benefit of judicial immunity, we use the functional
approach established by the United States Supreme Court
and look to the nature of the function performed, not the
identity of the person who performed it.”) (quoting D.L. v.
Huck, 978 N.E.2d 429, 433 (Ind. Ct. App. 2012)); Jarvis v.
Drake, 830 P.2d 23, 25–27 (Kan. 1992); Yanero v. Davis,
65 S.W.3d 510, 518–19 (Ky. 2001); Keller-Bee v. State, 138
A.3d 1253, 1257, 1258 (Md. 2016) (“[T]he State relies on
the settled proposition that it is ‘the nature of the function
performed, not the identity of the actor who performed it,’
that drives the immunity analysis.”) (quoting Forrester,
484 U.S. at 229) (emphasis omitted); Cotton v. Banks, 872

17
N.W.2d 1, 9–13 (Mich. Ct. App. 2015); Clark v. Dussault,
878 P.2d 479, 492–93 (Mont. 1994) (“Accordingly, the
functional approach to absolute immunity questions is
firmly rooted in the cases decided by the U.S. Supreme
Court and, in my view, is binding precedent on this
Court.”); Billups v. Scott, 571 N.W.2d 603, 605 (Neb. 1997);
Harrison v. Roitman, 362 P.3d 1138, 1140 (Nev. 2015);
Moore v. Cleveland, No. 100069, 2014 WL 1327910, at *3
(Ohio Ct. App. Apr. 3, 2014); Allen v. Zigler, 41 P.3d 1060,
1061 (Okla. Civ. App. 2001); Langella v. Cercone, 34 A.3d
835, 838–40 (Pa. Super. Ct. 2011); Marullo v. N.T.R. Ltd.,
No. KC 93-969, 1996 WL 937018, at *3 (R.I. Super. Ct. Dec.
4, 1996); Hansen v. Kjellsen, 638 N.W.2d 548, 549–50 (S.D.
2002); Cashion v. State, No. 01A01-9903-BC-00174, 1999
WL 722634, at *4–5 (Tenn. Ct. App. 1999); Blue Cross
Blue Shield of Tex. v. Juneau, 114 S.W.3d 126, 132–33
(Tex. App. 2003); Parker v. Dodgion, 971 P.2d 496 (Utah
1998); Taggart v. State, 822 P.2d 243, 250–51 (Wash. 1992)
(en banc); Paige K.B. by Peterson v. Molepske, 580 N.W.2d
289, 292 (Wis. 1998) (“Drawing from the reasoning of the
United States Supreme Court, Wisconsin courts apply a
functional analysis to determine whether such absolute
immunity attaches to a particular defendant: ‘immunity
is justified and defined by the functions it protects and
serves, not by the person to whom it attaches.’”) (quoting
Ford v. Kenosha Cty., 466 N.W.2d 646, 650 (Wis. 1991)).
The sheer number of state court cases across the
country applying this Court’s decisions regarding
the scope of judicial immunity as authoritative makes
apparent the need for review by this Court. The distinction
here between state court decisions subject to review and
those not subject to review can be readily defined similarly
to the test adopted by the Court in its cases regarding
independent and adequate state grounds. Thus, where a

18
state court unambiguously bases its decision on state law
only, there is no need for review by this Court. However,
where a state court decision:
fairly appears to rest primarily on federal law,
or to be interwoven with the federal law, and
when the adequacy and independence of any
possible state law ground is not clear from
the face of the opinion, we will accept as the
most reasonable explanation that the state
court decided the case the way it did because
it believed that federal law required it to do so.
Michigan v. Long, 463 U.S. 1032, 1040–41 (1983).
This approach in no way infringes on the independence
or autonomy of the states. Absent a decision by this
Court that states must provide at least as broad a judicial
immunity as does federal law, states are free to depart
from this Court’s determinations as to the scope of the
immunity. However, when a state voluntarily adopts
federal law as controlling, its decisions are subject to
review by this Court. As Justice Scalia explained, where
a state court reaches a decision because it believes that
federal law requires it to do so, “review by this Court, far
from undermining state autonomy, is the only possible
way to vindicate it.” Kansas v. Carr, 136 S. Ct. 633, 641
(2016).
In short, this case presents an important issue
regarding the scope of this Court’s jurisdiction under 28
U.S.C. § 1257(a) that has never been addressed. Unless
the Court is inclined to change its decision thus far not

19
to constitutionalize the law of judicial immunity,4 there
is no requirement that state courts adopt the federal law
of judicial immunity. However, where, as here, a state
decides to adopt federal law as its own, then this Court is
authorized by 28 U.S.C. § 1257(a) to review state decisions
as to the scope, content, and meaning of that federal law.
II. The decision below raises important questions
regarding the scope of the administrative function
exception to judicial immunity, cannot be reconciled
with this Court’s precedents, and conflicts with
decisions of other appellate (and trial) courts.
A.

The scope and purpose of judicial immunity.

Judges have long been entitled to absolute immunity
from civil liability for damages based on their judicial
acts, unless taken in the clear absence of jurisdiction.
The most compelling rationale for judicial immunity is
that it is essential to the independence of the judiciary.
As this Court has explained, “it is a general principle of
the highest importance to the proper administration of
justice that a judicial officer, in exercising the authority
vested in him, shall be free to act upon his own convictions,
without apprehension of personal consequence to himself.”
Mireles, 502 U.S. at 10.
Precisely because the purpose of immunity is to
protect judges from having to defend their judicial acts,
4. This case would provide an appropriate vehicle for
consideration of whether to constitutionalize the law of judicial
immunity were the Court inclined to do so, since the decision
below cannot be reconciled with the principles of judicial immunity
articulated by this Court.

20
the immunity from civil liability extends even to allegedly
malicious or dishonest acts. This principle “is not for the
protection or benefit of a malicious or corrupt judge, but
for the benefit of the public, whose interest it is that the
judges should be at liberty to exercise their functions with
independence and without fear of consequences.” Pierson
v. Ray, 386 U.S. 547, 554 (1967) (quoting Bradley v. Fisher,
80 U.S. (13 Wall.) 335, 347 (1871)).
In Forrester v. White, 484 U.S. 219 (1988), this Court
addressed the distinction between acts performed by a
judge in the judge’s judicial capacity and non-judicial acts
performed by a person who happens to be a judge. The
Court explained that “immunity is justified and defined by
the functions it protects and serves, not by the person to
whom it attaches.” 484 U.S. at 227. Applying this test, the
Court held that the defendant judge was performing an
administrative function when he demoted and discharged
a probation officer. Id. at 229. The Court emphasized that
the acts in question, while important to the administrative
functioning of the court system, were not themselves part
of the adjudicative process. Id.
Subsequently, in Mireles v. Waco, 502 U.S. 9 (1991),
the Court made clear that the concept of what is a
“judicial act” extends broadly, including acts that go
beyond deciding cases and including malicious acts that
could never be proper. In that case, the Court summarily
reversed a decision holding that a judge who allegedly
ordered police officers to use excessive force to bring
attorneys into the courtroom was not acting in his judicial
capacity. 502 U.S. at 11. Citing Stump, 435 U.S. 349, the
Court emphasized again that the inquiry is whether
the function being performed is one that is normally

21
performed by a judge. Id. at 13. The “relevant inquiry is
the ‘nature’ and ‘function’ of the act, not the ‘act itself.’” Id.
It likewise did not matter that the order was carried out
by police officers, not the judge, because it is the nature of
the function performed and not the identity of the person
who performs it that controls. Id.
B. The decision below conflicts with decisions of
this Court.
The sharply divided decision of the Louisiana
Supreme Court below cannot be reconciled with this
Court’s decisions; it sets a dangerous precedent that
unduly narrows the concept of what constitutes a judicial
act. As Justice Guidry explained in his dissenting opinion:
The majority’s determination that the law
clerk’s actions in a case assigned to the law
clerk’s judge are “administrative” ignores the
broad scope of judicial immunity and creates
a slippery slope by which courts will have to
parse every action or inaction in the cases
assigned to them to determine whether such
action (or inaction) is judicial, administrative,
or something else.
App. 22a. Justice Guidry likewise recognized that the
facts of this case are easily distinguishable from those in
Forrester. App. 23a.
The decision below conflicts with Forrester, Stump,
and this Court’s other decisions because it erroneously
focused on the particular act alleged, without recognizing
that what is controlling is that that act was taken in

22
the performance of a judicial function. Specifically, the
majority below concluded that the Judges’ alleged aiding
and concealing of the law clerk’s alleged destruction
of briefs, pleadings, and other court documents were
“administrative” because they were part of the Judges’
duty to supervise the law clerk. App. 2a. But this ignores
that the alleged failure to “supervise” the law clerk related
directly to the law clerk’s actions in assisting the court
in deciding a pending case. Palowsky’s claim is that he
was harmed by the way in which court pleadings in his
pending case were handled. All of the Judges’ and law
clerk’s alleged acts took place as part and parcel of the
process of handling and deciding pending cases. Palowsky
alleged that the document destruction was intended to
aid some litigants and harm others in how pending cases
were handled and decided, and he sought recovery because
the handling of his case made him a victim. App. 76a-77a.
The alleged acts by the Judges surely would be
reprehensible if the allegations were true (which is
disputed). Those alleged acts took place, however, in
the context of the Judges’ handling of cases pending
in court; the function being performed was a judicial
one and judicial immunity therefore applies. Indeed,
Palowsky asserts as his core claim (and the sole claim he
has standing to assert) that documents filed in his case
were destroyed or concealed and that the outcome of his
case was prejudiced as a result. Id. In short, Palowsky is
complaining about actions the Judges took in connection
with processing and deciding his case, i.e., in doing what
judges do.
As noted above, the central point of judicial immunity
is to protect judicial independence by preventing judges

23
from having to answer allegations that they acted
wrongfully, no matter how egregious the alleged conduct.
So long as the act was a judicial one not taken in the clear
absence of jurisdiction, immunity applies. E.g., Mireles,
502 U.S. at 11−12; Stump, 435 U.S. at 356−57. The decision
below departs from these principles and, as Justice
Crichton aptly wrote in his dissent, “risks eroding the
independence of the judiciary and could adversely affect
the public interest, including the paramount interest of
protection of the public and the impartial administration
of justice.” App. 25a.
C.

The decision below conflicts with decisions of
other appellate (and trial) courts.

The decision below also conflicts with decisions of
other appellate (and trial) courts in at least two respects.
As an initial matter, other courts have recognized that
judges working with law clerks in handling cases is part
and parcel of the judicial process, as is a judge considering
whether a law clerk did something inappropriate in
working with the judge in handling a case. E.g., Little
v. Hammond, 744 F. App’x 748 (3d Cir. 2018) (judge and
law clerk immune from § 1983 suit alleging conspiracy,
illegal actions, and other wrongdoing relating to plaintiff’s
criminal and child custody proceedings); Jackson v. Pfau,
523 F. App’x 736 (2d Cir. 2013) (judges, law clerk, and
other judicial officers immune from § 1983 suit as their
actions were “judicial in nature or closely related to the
judicial process”); Jackson v. Houck, 181 F. App’x 372 (4th
Cir. 2006) (judge and law clerk were entitled to absolute
judicial immunity from civil rights suit); Bradley v. United
States, 84 F. App’x 492 (6th Cir. 2003) (judges, law clerk,
and court clerk were entitled to judicial immunity in civil

24
rights suit alleging conspiracy to deprive plaintiff prisoner
of right of access to courts, where defendants were acting
“in their judicial and quasi-judicial duties”); Mitchell v.
McBryde, 944 F. 2d 229 (5th Cir. 1991) (judge and law clerk
immune from suit alleging they had maliciously conspired
to set aside a default judgment the plaintiffs previously
obtained); Daniel v. Safir, 135 F. Supp. 2d 367 (E.D.N.Y.
2001) (judge and law clerks immune from suit for acts
relating to issuance of decisions in plaintiff’s pending
case); Fariello v. Campbell, 860 F. Supp. 54 (E.D.N.Y.
1994) (judge, law clerks, court clerk, and hearing examiner
immune from § 1983 suit because they were performing
judicial functions with respect to plaintiff’s child custody
and child support proceedings); DeFerro v. Coco, 719 F.
Supp. 379 (E.D. Pa. 1989) (judges, law clerk, and court
clerk were immune from civil rights suit alleging plaintiff
was denied access to courts and court records).
Moreover, before the decision below, the law had
been developing to the effect that there is a bright line
rule that acts taken in connection with a judge’s handling
of a pending case are judicial in nature and that the
administrative function exception to judicial immunity
therefore does not apply. Thus, for example, in a case
involving allegations similar to those here, the Seventh
Circuit held that a judge ordering a clerk and court
reporter to alter a trial transcript and record constituted a
“judicial act” for which the judge was entitled to immunity.
Eades v. Sterlinske, 810 F.2d 723, 735–26 (7th Cir. 1987)
(decided pre-Forrester but looking to the function being
performed to determine what constitutes a “judicial act”).
Similarly, in Rodriguez v. Weprin, 116 F.3d 62, 66–67
(2d Cir. 1997), the Second Circuit applied Forrester in

25
holding that judicial immunity applied to a court clerk
who allegedly denied plaintiff access to records for
appeal and delayed scheduling the appeal. Other courts
also consistently hold that acts taken in connection with
a pending case are judicial acts. E.g., Nystedt v. Nigro,
700 F.3d 25, 31–32 (1st Cir. 2012) (finding special master’s
transmittal of invoices a judicial act); In re Castillo,
297 F.3d 940, 952 (9th Cir. 2002) (finding bankruptcy
trustee’s failure to give notice a “judicial function”);
Doyle v. Camelot Care Ctrs., Inc., 305 F.3d 603, 622–23
(7th Cir. 2002) (finding a judicial act when ALJs failed
to provide prompt administrative hearings); Gallas v.
Supreme Court of Pa., 211 F.3d 760, 770 (3d Cir. 2000)
(finding judge’s order releasing petition for protection
from abuse to news organization a judicial act); Thompson
v. Duke, 882 F.2d 1180, 1185 (7th Cir. 1989) (finding delay
in scheduling a parole hearing a judicial act); Johnson v.
Kegans, 870 F.2d 992, 997 (5th Cir. 1989) (finding judge’s
letter to parole board advocating for denial of parole for
inmate he sentenced a judicial act); Martinez v. Winner,
771 F.2d. 424, 434 (10th Cir. 1985) (finding case assignment
a judicial act); Kinney v. Clerk of Cal. Court of Appeal
Fourth Appellate Dist., No.: SACV 16-02197-CJC(KESx),
2017 WL 7735868, at *1 (C.D. Cal. Jan. 4, 2017) (finding a
judicial act when judge failed to assign appellate number);
Thomas v. Wilkins, 61 F. Supp. 3d 13, 17–19 (D.D.C. 2014)
(finding judge’s refusal to file documents and destruction
of documents in a case before him judicial acts); Saum v.
Savage, No. 2:13–CV–00872, 2014 WL 3105010, at *3–4
(S.D. Ohio July 7, 2014) (finding clerk of court’s failure to
cancel warrant a judicial act); Perez v. Gamez, No. 1:13–
CV–01552, 2013 WL 6147935, at *7 (M.D. Penn. Nov. 22,
2013) (finding judge’s failure to provide an interpreter a
judicial act); Mink v. Arizona, No. CV09–2582 PHX DGC,

26
2010 WL 2690633, at *1–2 (D. Ariz. July 6, 2010) (finding
suspension of driver’s license and all acts leading up to
suspension judicial acts); Book v. Tobin, No. 3:04cv442,
2005 U.S. Dist. LEXIS 17275, at *6–9 (D. Conn. Aug. 16,
2005) (finding judge’s failure to endorse notice of appeal
and provide transcripts to plaintiff judicial acts).
In short, before this case, the law since Forrester has
been developing toward a consensus that there is a bright
line rule that acts taken in connection with a pending case
are judicial acts. The decision of the Louisiana Supreme
Court in this case calls that developing consensus into
serious doubt and creates confusion in the law. That
decision also departs from the fundamental principles of
judicial immunity established by this Court.

27
CONCLUSION
This case presents two important issues, both of
which merit review. First, the Court has never addressed
whether it has the authority to review a decision of a state
court where the state has voluntarily adopted federal law
as its state law. This Court should settle this important
question.
Second, the decision below departs substantially
from the law articulated by this Court and conflicts with
decisions of other appellate (and trial) courts regarding
the critically important topic of judicial immunity. Since
Forrester, a consensus has been developing that there
is a bright line rule that acts taken in connection with
a pending case are judicial acts protected by judicial
immunity. The decision below departs from the developing
consensus and, unless corrected, will create confusion in
the law.
Accordingly, this petition for a writ of certiorari should
be granted.
Respectfully submitted,
Jon K. Guice
Justin N. Myers
Hammonds, Sills,
A dkins & Guice, LLP
1881 Hudson Circle
Monroe, LA 71201
(318) 324-0101

Richard A. Simpson
Counsel of Record
K atelyn B. Cramp
Wiley Rein LLP
1776 K Street, N.W.
Washington, D.C. 20006
(202) 719-7314
rsimpson@wiley.law

Counsel for Petitioners
February 3, 2020

APPENDIX

1a
Appendix OF
A THE SUPREME
APPENDIX A — OPINION
COURT OF LOUISIANA, DATED JUNE 26, 2019
SUPREME COURT OF LOUISIANA
No. 2018-C-1105, No. 2018-C-1115
STANLEY R. PALOWSKY, III, INDIVIDUALLY,
AND ON BEHALF OF ALTERNATIVE
ENVIRONMENTAL SOLUTIONS, INC.
v.
ALLYSON CAMPBELL, et al.
June 26, 2019, Decided
ON WRIT OF CERTIORARI TO THE COURT OF
APPEAL, FIRST CIRCUIT, PARISH OF OUACHITA
PER CURIAM*
Plaintiffs filed the instant suit against certain judges
of the Fourth Judicial District Court as well as a law
clerk employed by that court. Essentially, plaintiffs allege
the law clerk “spoliated, concealed, removed, destroyed,
shredded, withheld, and/or improperly ‘handled’ court
documents” in earlier litigation involving plaintiffs,
and that the judges either aided or concealed these
actions. The judges and law clerk filed motions to strike
certain allegations from plaintiff’s petition and also filed
* Retired Judge Michael Kirby appointed Justice ad hoc, sitting
for Clark, J., recused.

2a
Appendix A
exceptions of no cause of action. The district court granted
the motions to strike and granted the exceptions of no
cause of action. On appeal, a divided en banc panel of the
court of appeal reversed the motions to strike in part.
The court also reversed the granting of the exception of
no cause of action as to the law clerk, but affirmed the
granting of the exception of no cause of action as to the
judges, finding they were entitled to absolute judicial
immunity. Palowsky v. Campbell, 2016-1221 (La. App. 1
Cir. 4/11/18), 249 So.3d 945. We granted and consolidated
applications for certiorari filed by the law clerk and judges.
Palowsky v. Campbell, 2018-1105 c/w 2018-C-1115 (La.
12/3/18), So.3d, 2018 La. LEXIS 3314.
Considering the highly unusual and specific facts of
this case, the court of appeal erred in finding the judges
were entitled to absolute judicial immunity. Accepting the
facts as alleged in the petition as true for purposes of the
exception of no cause of action, we find plaintiff’s allegations
regarding the judges’ supervision and investigation of the
law clerk’s activities arise in the context of the judges’
administrative functions, rather than in the course of their
judicial or adjudicative capacities. In Forrester v. White,
484 U.S. 219, 229, 108 S. Ct. 538, 98 L. Ed. 2d 555 (1988),
the United States Supreme Court held that a judge’s
exercise of administrative functions, such as “supervising
court employees and overseeing the efficient operation
of a court—may have been quite important in providing
the necessary conditions of a sound adjudicative system,”
but such administrative decisions “were not themselves
judicial or adjudicative.” Therefore, accepting on the wellpleaded allegations of plaintiff’s petition, absolute judicial

3a
Appendix A
immunity would not apply, and plaintiff is able to state a
cause of action against the judges.
In reaching this conclusion, we emphasize that we
express no opinion on whether plaintiff can prove these
allegations. Moreover, our opinion today should not be
read as undermining or eroding the strong principles of
absolute judicial immunity which are firmly established
in our jurisprudence. Rather, we merely hold that under
the narrow and specific parameters of plaintiff’s petition,
plaintiff has alleged sufficient facts to state a cause of
action against the judges.
Accordingly, we reverse the judgment of the court of
appeal insofar as it dismissed plaintiff’s claims against
the judges with prejudice. In all other respects, we find
no error in the court of appeal’s judgment and therefore
affirm the remaining portions of that judgment.
DECREE
For the reasons assigned, the judgment of the court
of appeal is reversed insofar as it dismisses plaintiff’s
claims against the defendant judges with prejudice. The
exception of no cause of action filed by these defendants
is hereby denied. In all other respects, the judgment of
the court of appeal is affirmed. The case is remanded to
the district court for further proceedings.

4a
Appendix A
JOHNSON, Chief Justice, concurs in part, dissents in
part, and assigns reasons.
While I agree with the majority that the law clerk
employee is not entitled to immunity, I respectfully dissent
on the issue of judicial immunity. A judge has immunity
from civil liability when sued for actions taken pursuant
to his or her judicial authority. While this immunity is not
absolute since our jurisprudence recognizes that a judge
is not immune from liability for non-judicial acts, namely
the administrative acts needed to operate a court, the
allegations against these judges are properly classified as
acts done in their judicial capacities. As such, I find the
judges are not subject to civil liability for their actions,
but the plaintiff would have recourse to seek review of
the judges’ actions in the underlying case from the court
of appeal and this court, or by filing a complaint with the
Judiciary Commission regarding the judges’ actions.

5a
Appendix A
WEIMER, J., concurring.
I concur with the majority’s finding that neither the
law clerk nor the judges at her court are immune from
this lawsuit alleging the law clerk purposely destroyed and
hid documents relevant to the plaintiff’s prior litigation.
I write separately because I find that a requirement in
earlier cases for a plaintiff to plead “malice or corruption”
no longer has a place in the law of judicial immunity.
Instead of requiring a plaintiff to enter the murky realm
of ascertaining and pleading a judge’s motivation, the
jurisprudence has evolved such that the function of the
judge’s behavior is the touchstone for immunity. If the
challenged behavior stems from a judicial function, the
judge is immune from suit. If the challenged behavior is
outside a judicial function, immunity does not apply.
Judicial immunity has long been a jurisprudential
construct in Louisiana. This court, in Berry v. Bass, 157
LA. 81, 102 So. 76, 81 (La. 1924), reviewed the prior case
law and stated that when judges “have exercised their
functions in good faith, without malice or corruption, they
should not be held liable for errors of judgment.” Over
the years, the significance of allegations of malice and
corruption slightly changed. For example, in Moore v.
Taylor, 541 So.2d 378, 381 (La.App. 2 Cir. 1989), the court
suggested allegations of malice and corruption have their
place within a two-part test: (1) the plaintiff must show
the judge acted outside his judicial capacity and (2) even
if the judge “has technically acted outside his jurisdiction
and contrary to law, he will remain protected unless his
actions were based on malice or corruption.”

6a
Appendix A
While the jurisprudential doctrine of judicial immunity
in Louisiana initially drew solely from our state’s cases
(see, e.g. Berry, 102 So. at 79-81 (collecting cases)), by the
time Moore was decided, it was recognized that “[t]he
Louisiana jurisprudence on judicial immunity mirrors
the federal doctrine.” Moore, 541 So.2d at 381. Nearly
contemporaneous with Moore, the U.S. Supreme Court in
Forrester v. White, 484 U.S. 219, 228-29, 108 S. Ct. 538, 98
L. Ed. 2d 555 (1988), ruled that administrative decisions
are outside the scope of judicial immunity. Furthermore,
shortly after Moore, the United States Supreme Court
grappled again with the extent of judicial immunity. See
Mireles v. Waco, 502 U.S. 9, 112 S. Ct. 286, 116 L. Ed. 2d
9 (1991).
In Mireles, the Court examined the significance of
“bad faith or malice”, which is phraseology substantially
the same as the requirement that had evolved in
Louisiana cases to prove a judge had acted with “malice
or corruption.” See Moore, 541 So.2d at 381. The Mireles
Court ruled that “judicial immunity is not overcome by
allegations of bad faith or malice.” Mireles, 502 U.S. at 11.
The Court explained that “the existence of” bad faith or
malice “ordinarily cannot be resolved without engaging
in discovery and eventual trial.” Id. The Supreme Court
recognized that avoiding the necessity for judges to
explain their actions and decisions in discovery in all
but the most narrow set of cases is a major purpose of
judicial immunity. See Id. at 11 (“Like other forms of
official immunity, judicial immunity is an immunity from
suit, not just from ultimate assessment of damages.”).
Our own jurisprudence contains a similar recognition of

7a
Appendix A
the importance of freeing judges from litigation, as long
ago this court ruled: “On the highest grounds of necessity
and public policy judges cannot be held liable for acts
done by them in their judicial capacity” and this court
logically connected judges with other “executive officers
of the court” who “cannot be sued for acts which they do
in obedience to the orders of the court appointing them.”
Killeen v. Boland, Gschwind Co., 157 La. 566, 102 So. 672,
675 (1924) (on reh’g).
Again recalling in modern times that our state courts
have taken cues from the federal jurisprudence, I believe
the time has arrived to put to words what the majority of
this court now tacitly recognizes from this case: requiring
a plaintiff to plead “malice or corruption” to overcome
judicial immunity is an archaic requirement inconsistent
with the goals of judicial immunity. Instead of requiring
a plaintiff to enter the murky realm of pleading and later
embarking on extensive discovery to prove a judge’s
motivation, the jurisprudence has evolved such that the
function of—not the motivation for—a judge’s behavior
has become the touchstone for immunity. See Forrester,
484 U.S. at 227 (“immunity is justified and defined by
the functions it protects and serves.”). On one hand, the
jurisprudence dictates that if the challenged act/omission
stems from a judicial function, the judge is immune from
suit. On the other hand, if the challenged act/omission is
outside a judicial function, immunity does not apply. See
Id. (explaining “immunity is appropriate” for judicial acts,
but not for “acts that simply happen to have been done by
judges.”).

8a
Appendix A
The Supreme Court has developed a two-factor
test for determining whether an act relates to a judicial
function. “[T]he factors determining whether an act by
a judge is a ‘judicial’ one relate to the nature of the act
itself, i.e., whether it is a function normally performed by a
judge, and to the expectations of the parties, i.e., whether
they dealt with the judge in his judicial capacity.” Stump
v. Sparkman, 435 U.S. 349, 362, 98 S. Ct. 1099, 55 L. Ed.
2d 331 (1978).
The allegations here are most unusual; therefore,
these factors should be regarded as guideposts to assist
in analysis. I find the district court’s striking from Mr.
Palowsky’s petition various allegations relating to payroll
fraud by the law clerk to be consistent with the Stump
guideposts. A cause of action in favor of Mr. Palowsky for
payroll fraud is simply non-existent; Mr. Palowsky alleges
no harm came to him personally from the alleged payroll
fraud. A cause of action for the provisions of his petition
that have not been struck is extremely limited, if it exists at
all. The allegations that the clerk thwarted Mr. Palowsky’s
litigation by sabotaging the presentation of pleadings to
judges are allegations that narrowly avoid immunity, in
my view, as being outside a judicial function. Indeed, there
is much to commend in my learned colleague’s dissent,
which finds the connection between the clerk’s alleged
misdeeds and injury to Mr. Palowsky’s other litigation is
a connection that justifies judicial immunity. However, I
find the allegations of misdeeds to be such that accepting
them as true, as we must for present purposes, the clerk
essentially severed a connection between herself and a
judicial function. The alleged destruction and concealment

9a
Appendix A
of documents essentially would have precluded judicial
work. If a court is a metaphorical temple of justice, the
allegations here are essentially that the clerk’s alleged
destruction and concealment of documents closed the
door to one litigant, allowing only the prayers of the other
litigant to reach the decision makers inside.
While the Stump guideposts are placed such that
another case involving a law clerk could certainly be
decided differently, the allegations here that the law clerk
essentially precluded the trial court from engaging in
some of its most basic judicial functions, like evaluating
pleadings, are such that do not justify judicial immunity.
For similar reasons, I find that the district court
judges are not immune from certain allegations outside
their judicial function. Specifically, as identified by one of
my learned colleagues on the appellate court, “the alleged
failure to ‘supervise’ [the law clerk] in this context is more
akin to an administrative responsibility.” Palowsky v.
Campbell, 16-1221, p. 2 (La.App. 1 Cir. 4/11/18), 249 So.3d
945, 984 (Crain, J., agreeing in part and dissenting in
part). Also, and with the caveat that all allegations must
be accepted as true for purposes of evaluating an exception
of no cause of action, the petition contains allegations that
the judges essentially conspired to cover up the law clerk’s
destruction of public records, which facilitated the records
not being considered. These allegations “arguably satisfy
the essential elements of a crime, namely injuring public
records, then concealing it.” See La. R.S. 14:132; see also
La. R.S. 14:25. The doctrine of judicial immunity does not
shield judicial actors from civil liability for criminal acts

10a
Appendix A
committed outside the judicial function. See Mireles, 502
U.S. at 9-10 n.1.
To my learned colleague’s observations, I add the
following. Daily, judges, often assisted by law clerks,
address issues from litigants who perceive they have
been wronged, have actually been wronged, have been
accused of wrongs, or have actually committed wrongs.
The judicial system tasks judges, often aided by law
clerks, with resolving these matters and making the
right decisions. This goal is often elusive, given the many
competing considerations that must be balanced on the
scales of justice. In order to function, the judicial system
must shield judges and law clerks from being targeted with
monetary liability for their actions within their judicial
duties by those who are dissatisfied with a decision. See
Forrester, 484 U.S. at 225 (citing Bradley v. Fisher, 80
U.S. 335, 13 Wall. 335, 348, 20 L. Ed. 646 (1872)) (“judicial
immunity ... protect[s] judicial independence by insulating
judges from vexatious actions prosecuted by disgruntled
litigants.”). While monetary liability is excluded for the
exercise of judicial functions, the judicial system provides
litigants other safeguards, such as appellate review
for what may be regarded as errors or “mistakes,” or
a referral to the disciplinary systems for judges and
attorneys who commit misconduct. See Forrester, 484 U.S.
at 227; see also La. Const. art. V, § 25(C); La. Sup. Ct.
Rule XIX. Thus, judges and law clerks are not above the
law, but are rightfully accountable within the civil justice
system-just as any other person-when acting outside their
judicial function.

11a
Appendix A
Consistent with these principles, I would find that
the plaintiff has pleaded a cause of action against the
judges with particularity. Just as fraud must be pleaded
with particularity “for ... exceptional cases where the
full circumstances are needed to afford adequate notice
to the opposing litigant,” (Revision Comment to La.
C.C.P. art. 856), in order to demonstrate why the civil
justice system should be employed against a judge or
law clerk, the particularity requirement must apply. As
this case demonstrates by the recusal of an entire circuit
court, it is no routine matter for the civil justice system
to adjudicate monetary claims against its judges or law
clerks. Therefore, the particularity requirement rightly
imposes a responsibility on a claimant to facially justify
whatever extraordinary measures may be necessary.
Relatedly, La. C.C.P. art. 863 imposes protections, in the
form of sanctions, against a claimant submitting spurious
pleadings.
It must be well-noted that the allegations in this
case are just that, allegations. By law, no evidence
may be introduced when evaluating an exception of no
cause of action. See La. C.C.P. art. 931 (“No evidence
may be introduced at any time to support or controvert
the objection that the petition fails to state a cause of
action.”). Therefore, we are required by law to accept
these allegations as true at this preliminary stage of the
proceeding. See City of New Orleans v. Bd. of Comm’rs
of Orleans Levee Dist., 93-0690, p. 28 (La. 7/5/94); 640
So.2d 237, 253 (“In deciding the exception of no cause of
action, the court must presume all factual allegations of
the petition to be true and all reasonable inferences are

12a
Appendix A
made in favor of the non-moving party.”). Proof, however,
of these allegations is a far different matter, and the
party making the allegations will not benefit from any
presumption of truth. Rather, the party making the
allegations will bear the burden of proving the allegations
are true as this matter proceeds.

13a
Appendix A
Guidry, J., dissents and assigns reasons.
I respectfully dissent from the court’s per curiam
opinion holding that the alleged actions and omissions of
the defendant judges and law clerk are administrative
rather than judicial and finding that neither the judges
nor the law clerk are entitled to judicial immunity. Despite
numerous allegations contained in Mr. Palowsky’s petition
and amended petition filed in the present action, Mr.
Palowsky has legal standing to pursue only the claims
against these defendants that relate to their actions and/or
inactions in the separate Palowsky v. Cork case. Because
those alleged actions/inactions relate to another case
pending before the court, they are decidedly judicial in
nature. As such, these defendants are entitled to judicial
immunity from civil liability.
BACKGROUND
Plaintiff, Stanley Palowsky, is also the plaintiff in a
separate case pending before the Fourth Judicial District
Court, Palowsky v. Cork, No. 13-2059 (“Cork”), in which
Mr. Palowsky is suing his business partner.1 Palowsky’s
present lawsuit asserts claims for damages as a result
1. In the original Petition for Damages filed in the present
case, Mr. Palowsky explains that he appears both individually and
as a 50% shareholder and director of Alternative Environmental
Solutions, Inc. (“AESI”). AESI is also named a “nominal defendant”
in this case, but Mr. Palowsky states that “it would be a vain and
useless act for him to demand that AESI bring the present action
as the other 50-percent shareholder of AESI is W. Brandon Cork,
who ... has been sued by Palowsky in a related action.”

14a
Appendix A
of Fourth Judicial District Court law clerk Allyson
Campbell’s alleged destruction of documents in the Cork
case. The original petition alleged that Campbell:
maliciously and intentionally harmed Palowsky
and willfully violated his constitutionally
protected rights to both due process and access
to courts [when] she spoliated, concealed,
removed, destroyed, shredded, withheld,
and/or improperly ‘handled’ court documents
such as memoranda of law, orders, pleadings,
sealed court documents, and chamber copies
of pleadings filed with the clerk and handdelivered to the judge’s office.
Palowsky further alleged Campbell “maliciously
withheld and concealed documents and pleadings in
the trial court as well as from the record that was sent
to the Second Circuit Court of Appeal” and that her
actions amount to fraud, abuse of process, and a violation
of La. R.S. 14:132 (the criminal statute addressing the
destruction or alteration of public records), as well as
intentional infliction of emotional distress. 2
In a supplemental and amended petition, Palowsky
named as additional defendants Chief Judge H. Stephens
2. Mr. Palowsky also alleged Ms. Campbell had a history of
payroll fraud, as she was repeatedly absent from work and posted
several pictures on Facebook indicating she did her job in restaurants
or bars, often while drinking alcohol; that she had a history of
destroying documents in other litigants’ cases; and that 52 writ
applications, which had been missing for more than a year, were
discovered in Ms. Campbell’s office, but she was never reprimanded.

15a
Appendix A
Winters and Judges Carl Sharp, Benjamin Jones, J.
Wilson Rambo, and Frederic Amman, asserting that the
judges were involved in an investigation into a criminal
complaint against the Court for payroll fraud involving
Campbell. The amended petition states that “Defendant
Judges all owe an administrative duty to properly audit,
investigate, and report suspected payroll fraud;” that the
judges “actively schemed to cover up same;” and that the
judges failed to supervise the law clerk. Mr. Palowsky
further alleged that Judges Amman, Sharp, and Rambo
committed payroll fraud in certifying her timesheets and
records for payroll and in covering up the scheme, and
that they violated multiple Canons of the Code of Judicial
Conduct. As a result, Mr. Palowsky claims he is entitled
to be compensated for any and all damages that he and
his company have suffered.
Ms. Campbell and defendant judges filed separate
exceptions of no cause of action. The trial court granted
Ms. Campbell’s and the judges’ exceptions, agreeing that
Mr. Palowsky’s claims for civil damages were barred by
the doctrine of absolute judicial immunity.
Mr. Palowsky appealed. A majority of the First
Circuit, 3 en banc, upheld the trial court’s ruling as to the
defendant judges but reversed the trial court’s ruling
as to the law clerk, finding that she was not entitled to
judicial immunity and overruling her exception of no
cause of action.
3. Ordinarily this matter would have been appealed to the
Second Circuit Court of Appeal, but the judges of the Second Circuit
recused themselves. This Court transferred Mr. Palowsky’s appeal
to the First Circuit Court of Appeal for review.

16a
Appendix A
Mr. Palowsky and Ms. Campbell filed writ applications
in this court seeking review of the court of appeal’s ruling.
This court granted both writ applications and heard oral
argument to determine whether the doctrine of judicial
immunity applies to bar Mr. Palowsky’s claims against
Ms. Campbell and/or the defendant judges.
APPLICABLE LAW
Judicial Immunity
The United States Supreme Court consistently has
recognized a judge’s absolute immunity from civil liability
when he or she is sued for actions taken pursuant to his
or her judicial power and authority. “Few doctrines were
more solidly established at common law than the immunity
of judges from liability for damages for acts committed
within their judicial jurisdiction.” Pierson v. Ray, 386 U.S.
547, 553-54, 87 S.Ct. 1213, 18 L.Ed.2d 288 (1967) (citing
Bradley v. Fisher, 80 U.S. 335, 13 Wall. 335, 20 L.Ed. 646
(1872)). Two exceptions exist when applying the doctrine
of judicial immunity, however:
First, a judge is not immune from liability
for nonjudicial actions, i.e., actions not taken
in the judge’s judicial capacity. Forrester v.
White, 484 U.S., at 227-229, 108 S.Ct., at 544545; Stump v. Sparkman, 435 U.S., at 360, 98
S.Ct., at 1106. Second, a judge is not immune
for actions, though judicial in nature, taken in
the complete absence of all jurisdiction. Id.,
at 356-357, 98 S.Ct., at 1104-1105; Bradley v.
Fisher, 13 Wall., at 351.

17a
Appendix A
Mireles v. Waco, 502 U.S. 9, 11-12, 112 S.Ct. 286, 116
L.Ed.2d 9 (1991). More succinctly, administrative
decisions, even those necessary for the functioning of the
court, have not been regarded as judicial acts. Forrester,
484 U.S. at 228.
On the other hand, when judicial acts performed
within a judge’s jurisdiction are committed “with malice,”
courts have granted immunity. The Supreme Court in
Pierson stated:
This immunity applies even when the judge is
accused of acting maliciously and corruptly,
and it ‘is not for the protection or benefit of a
malicious or corrupt judge, but for the benefit
of the public, whose interest it is that the
judges should be at liberty to exercise their
functions with independence and without fear
of consequences.’ [Citations omitted.]
386 U.S. at 554. See also Mitchell v. McBryde, 944 F.2d
229, 230 (5th Cir. 1991); Dellenbach v. Letsinger, 889
F.2d 755, 759 (7th Cir. 1989); Harlow v. Fitzgerald, 457
U.S. 800, 815-19, 102 S.Ct. 2727, 2736-39, 73 L.Ed.2d 396
(1982) (allegations of malice are insufficient to overcome
qualified immunity).
Louisiana has likewise recognized that judges acting
within the scope of their subject matter jurisdiction cannot
be held liable for acts done in their judicial capacities.
Killeen v. Boland, Gschwind Co., 157 La. 566, 574, 102 So.
672 (1924); see also Knapper v. Connick, 96-0434, p. 5 (La.

18a
Appendix A
10/15/96), 681 So.2d 944, 947 (“[W]e have harmonized our
own state immunity rules with federal immunity principles
in the past.”). To that end, this court has defined the broad
nature of absolute judicial immunity as attaching “to
all acts within a judge’s jurisdiction, even if those acts
can be shown to have been performed with malice, in
order to insure that all judges will be free to fulfill their
responsibilities without the threat of civil prosecution
by disgruntled litigants.” Knapper, 681 So.2d at 946
(emphasis added). “[I]f only the particular act in question
were to be scrutinized, then any mistake of a judge in
excess of his authority would become a ‘nonjudicial’ act,
because an improper or erroneous act cannot be said to
be normally performed by a judge. If judicial immunity
means anything, it means that a judge ‘will not be deprived
of immunity because the action he took was in error ... or
was in excess of his authority.’” Mireles, 502 U.S. at 12-13
(quoting Stump v. Sparkman, 435 U.S. 349, 362, 98 S.Ct.
1099, 1108, 55 L.Ed.2d 331 (1978)).
Absolute immunity is not limited strictly to judges,
however. “The concern for the integrity of the judicial
process underlying the absolute immunity of judges also is
reflected in the extension of absolute immunity to ‘certain
others who perform functions closely associated with the
judicial process.’” Oliva v. Heller, 839 F.2d 37, 39 (2nd Cir.
1988) (quoting Cleavinger v. Saxner, 474 U.S. 193, 200,
106 S.Ct. 496, 500, 88 L.Ed.2d 507 (1985)). To determine
who is covered by an extension of judicial immunity, the
Supreme Court follows a functional approach, looking not
to the title of the person performing the action but to the
nature of the responsibilities being performed. Oliva, 839
F.2d at 39.

19a
Appendix A
Courts have recognized absolute immunity on behalf
of a law clerk when the law clerk’s actions are substantially
intertwined with those of a judge who is acting in a judicial
capacity and with proper jurisdiction. The Oliva court,
affirming the district court’s finding of judicial immunity
for both the law clerk and the judge, agreed that the duties
of a law clerk are closely intertwined with the work of the
judge:
[T]he work of judges’ law clerks is entirely
[judicial in nature]. Law clerks are closely
connected with the court’s decision-making
process. Law clerks are “sounding boards
for tentative opinions and legal researchers
who seek the authorities that affect decisions.
Clerks are privy to the judge’s thoughts in a
way that neither parties to the lawsuit nor his
most intimate family members may be.” Hall v.
Small Business Administration, 695 F.2d 175,
179 (5th Cir. 1983). Moreover, the work done by
law clerks is supervised, approved, and adopted
by the judges who initially authorized it. A
judicial opinion is not that of the law clerk, but
of the judge. Law clerks are simply extensions
of the judges at whose pleasure they serve.
Oliva, 839 F.2d at 40 (quoting Oliva v. Heller, 670 F.Supp.
523, 526 (S.D.N.Y. 1987)).
In Mitchell v. McBryde, 944 F.2d at 230, the Fifth
Circuit Court of Appeals found absolute judicial immunity
from a suit alleging a judge had maliciously conspired with

20a
Appendix A
his law clerk to set aside a default judgment that plaintiffs
had obtained in a prior lawsuit. Citing Oliva, supra, the
Mitchell court agreed that judicial immunity, as applied
to the judge, extended to the law clerk as well. See also
Little v. Hammond, 744 Fed.Appx. 748, 750 (3rd Cir. 2018)
(judge and law clerk both entitled to judicial immunity
from litigant’s 1983 action alleging conspiracy related to
his criminal and child custody proceedings); Jackson v.
Houck, 181 Fed.Appx. 372, 373 (4th Cir. 2006) (affirming
district court’s dismissal of plaintiff’s suit after finding
judge and law clerk were entitled to absolute judicial
immunity from civil rights suit); Bradley v. U.S., 84 Fed.
Appx. 492, 493 (6th Cir. 2003) (judges, law clerk, and court
clerk were entitled to judicial immunity in prisoner’s civil
rights suit alleging they violated his right of access to
courts, as they were acting “in their judicial and quasijudicial duties”).
No Cause of Action and Standing
The peremptory exception of no cause of action is
designed to test the legal sufficiency of a petition by
determining whether a party is afforded a remedy in law
based on the facts alleged in the pleading. La. C.C.P. arts.
681 and 927; Foti v. Holliday, 09-0093, p.5 (La. 10/30/09),
27 So.3d 813, 817. All well-pleaded allegations of fact are
accepted as true, and all doubts are resolved in favor of
sufficiency of the petition. La. C.C.P. art. 865; Kuebler
v. Martin, 578 So.2d 113, 114 (La. 1991). The burden of
demonstrating that a petition fails to state a cause of action
is upon the mover. Ramey v. DeCaire, 03-1299, p. 7 (La.
3/19/04), 869 So.2d 114, 119.

21a
Appendix A
The sufficiency of a petition subject to an exception
of no cause of action is a question of law. Fink v. Bryant,
01-0987, p. 4 (La. 11/28/01), 801 So.2d 346, 349. A de
novo standard is applied to the review of legal questions,
wherein this court renders a judgment based on the record
without deference to the legal conclusions of the lower
courts. Cleco Evangeline, LLC v. Louisiana Tax Comm’n,
01-2162, p. 3 (La. 4/3/02), 813 So.2d 351, 353.
A trial or appellate court may raise issues of standing
on its own motion. La. C.C.P. art. 927(B); Turner v.
Busby, 03-3444, p. 4 (La. 9/9/04), 883 So.2d 412, 415-16.
“The predicate requirement of standing is satisfied if
[the litigant] has an interest at stake in litigation which
can be legally protected.” In re: Melancon, 05-1702, p. 9
(La. 7/10/06), 935 So.2d 661, 668. “The standing inquiry
requires careful examination of whether a particular
litigant is entitled to an adjudication of the particular claim
it has asserted.” In re Matter Under Investigation, 071853, p. 10 (La. 7/1/09), 15 So.3d 972, 981 (citing Melancon,
935 So.2d at 668). When the facts alleged provide a remedy
to someone, but the litigant who seeks relief is not the
person in whose favor the law extends the remedy, that
litigant is without standing. Melancon, 935 So.2d at 668.
ANALYSIS
Mr. Palowsky alleged that the law clerk “spoliated,
concealed, removed, destroyed, shredded, withheld, and/
or improperly ‘handled’ court documents” in the Cork
litigation and that the judges covered up these actions.
Although his petition includes additional allegations

22a
Appendix A
unrelated to Cork, Mr. Palowsky has standing in the
present case only with regard to the allegations related to
the Cork litigation. Stated differently, he has no standing
to assert claims against these defendants for alleged
payroll fraud, nor for any other claims separate from the
Cork litigation, because he cannot demonstrate that he
has a particular interest outside of the Cork litigation.
“A plaintiff must have a real and actual interest in the
action he asserts, LSA-C.C.P. art. 681. Without a showing
of some special interest ... separate and distinct from
the interest of the public at large, plaintiff will not be
permitted to proceed.” League of Women Voters v. City
of New Orleans, 381 So.2d 441, 447 (La. 1980).
The claims against the law clerk and judges for which
Mr. Palowsky has standing arise from his alleged damages
sustained from their handling of the Cork litigation. The
very allegations that he asserts against the law clerk—
destruction of court filings—arise as a result of the
judicial functions being performed in conjunction with
that lawsuit. Mr. Palowsky’s additional allegations, such
as payroll fraud, are concerns of the public at large but
do not state a claim that is particular to Mr. Palowsky.
The majority’s determination that the law clerk’s
actions in a case assigned to the law clerk’s judge are
“administrative” ignores the broad scope of judicial
immunity and creates a slippery slope by which courts will
have to parse every action or inaction in the cases assigned
to them to determine whether such action (or inaction) is
judicial, administrative, or something else. “[T]he opening
of any inroads weakening judicial immunity could have the

23a
Appendix A
gravest consequences to our system of justice.” McAlester
v. Brown, 469 F.2d 1280, 1283 (5th Cir. 1972).
Similarly, to the extent Mr. Palowsky has standing to
assert allegations that the judges failed to supervise the
law clerk, the alleged lack of supervision falls within the
judges’ judicial capacity. It is not necessary to determine
whether the additional allegations of misconduct asserted
against these defendants, but unrelated to Cork, are
judicial or administrative, as Mr. Palowsky has no
standing to pursue these claims.
Furthermore, I find the present facts distinguishable
from the facts in Forrester, a case in which the U.S.
Supreme Court held that a judge who allegedly demoted
a probation officer on the basis of her sex was not entitled
to judicial immunity, as the judge was acting in an
administrative capacity rather than a judicial capacity.
484 U.S. at 229. In stark contrast to the employment claim
asserted in Forrester, the claims for which Mr. Palowsky
has standing are grounded in the defendants’ judicial
functions.
My views regarding the broad scope of judicial
immunity and its application to these facts in no way
indicates that I wish to turn a blind eye to Mr. Palowsky’s
allegations. Every litigant in any court of law is entitled
to justice dispensed by a fair and impartial judiciary. If
these defendants failed Mr. Palowsky in that regard, they
may be subjected to other discipline, including potential
criminal charges for destruction of public records. But I
cannot say that the allegations for which Mr. Palowsky

24a
Appendix A
has standing, as ill-considered and distasteful as they
may be, justify the erosion of judicial immunity, which
has been recognized by state and federal courts for more
than a century.
Accordingly, I would reverse the portion of the court of
appeal’s decision that overruled Ms. Campbell’s exception
of no cause of action based on judicial immunity and
affirm the court of appeal’s ruling sustaining the judges’
exception of no cause of action. Under these facts, these
defendants are absolutely immune from suit.

25a
Appendix A
Crichton, J., dissents and assigns reasons.
I agree with the majority’s conclusion that the
alleged actions at issue are outrageous. However, in
my view, the per curiam conflicts with the established
principle of judicial immunity, which is based in over
150 years of federal and state jurisprudence and is
foundational to the rule of law. It also risks eroding the
independence of the judiciary and could adversely affect
the public interest, including the paramount interest of
protection of the public and the impartial administration
of justice. See, e.g., Knapper v. Connick, 96-0434, p.3
(La. 10/15/96), 681 So. 2d 944, 946 (“Absolute immunity
attaches to all acts within a judge’s jurisdiction, even if
those acts can be shown to have been performed with
malice, in order to insure that all judges will be free to
fulfill their responsibilities without the threat of civil
prosecution by disgruntled litigants.”); Pierson v. Ray,
386 U.S. 547, 554, 87 S. Ct. 1213, 18 L. Ed. 2d 288 (1967)
(“[A judge] should not have to fear that unsatisfied
litigants may hound him with litigation charging malice
or corruption. Imposing such a burden on judges would
contribute not to principled and fearless decision-making
but to intimidation.”); Bradley v. Fisher, 80 U.S. 335, 347,
20 L. Ed. 646 (1871) (explaining that the public is “deeply
invested” in the principle of judicial immunity, “which
indeed exists for their benefit, and was established in
order to secure the independence of the judges, and
prevent them being harassed by vexatious actions”).1 I
1. Indeed, in my view, it can be no other way. Judicial immunity
is “immunity from suit, not just from ultimate assessment of

26a
Appendix A
therefore dissent, for the reasons assigned by Justice
Guidry.
I write separately from Justice Guidry solely to note
that judicial immunity is absolutely not a “get out of
jail free” card for any of the parties herein, nor should
this dissent be construed to condone the disturbing
allegations against the rogue law clerk and the judges.
Proper application of the immunity doctrine here would
immunize the clerk and judges only from civil liability,
i.e., payment of monetary damages to the plaintiffs, and
leaves open other remedies against them. In addition to
losing her job, assuming, arguendo, that the relevant
time limitations for prosecution have not elapsed, the
law clerk’s actions may meet the elements of a violation
of criminal law, the consequences of which could include
a fine and/or imprisonment for a felony crime. See R.S.
14:132 (Injuring Public Records). The judges could also be
subject to prosecution for their role in this sordid affair.
See R.S. 14:25 (Accessory After the Fact). Additionally,
the judges may be subject to discipline by the appropriate
authorities for violation of the judicial canons, which could
include suspension without pay or even removal from
damages.” Mireles v. Waco, 502 U.S. 9, 11, 112 S. Ct. 286, 116 L. Ed.
2d 9 (1991). This immunity therefore prevents judges from being
hauled into court as defendants, which could subject the entirety of
their decision-making processes to virtually unlimited discovery. See
Rehberg v. Paulk, 566 U.S. 356, 370, 132 S. Ct. 1497, 182 L. Ed. 2d
593 (“Judges, on mere allegations of conspiracy or prior agreement,
could be hauled into court and made to defend their judicial acts, the
precise result judicial immunity was designed to avoid.”) (quoting
Dykes v. Hosemann, 776 F.2d 942, 946 (11th Cir. 1985)).

27a
Appendix A
office. See, e.g., Canons 2, 3. And, of course, they may face
consequences at the ballot box. See Randall v. Brigham,
74 U.S. 523, 19 L. Ed. 285 (1868) (“If faithless, if corrupt,
if dishonest, if partial, if oppressive or arbitrary, they may
be called to account by impeachment, and removed from
office. . . . But responsible they are not to private parties
in civil actions for their judicial acts, however injurious
may be those acts, and however much they may deserve
condemnation. . . .”); Bradley v. Fisher, 80 U.S. 335, 354,
20 L. Ed. 646 (1871) (“[F]or malice or corruption in their
action whilst exercising their judicial functions within
the general scope of their jurisdiction, the judges of these
courts can only be reached by public prosecution in the
form of impeachment, or in such other form as may be
specially prescribed.”).
The defendants may therefore still face significant
repercussions for their disgraceful conduct. However,
in my view, those repercussions cannot include civil
liability. In finding otherwise, I believe the per curiam
is an aberration that could result in the erosion of the
principle of immunity, which is intended to protect the
public interest and the independence of the judiciary.

28a
Appendix A
Kirby, J., ad hoc, concurs and assigns reasons.
I fully concur with the rationale and holding of the
majority per curiam. As stated therein, at this stage of
these proceedings, this result is required by the decision
of the United States Supreme Court in Forrester v.
White 484 U.S. 219, 108 S.Ct. 538, 98 L.Ed.2d 555 (1988).
In her opinion for a unanimous court, Justice O’Connor
recognized the inherent difficulty in distinguishing
between “truly judicial acts” entitled to immunity and
those “that simply happen to have been done by judges”
for which immunity is not appropriate. The vexation
comes from the fact, also noted by Justice O’Connor, that
the court has never precisely defined the acts entitled
to judicial immunity, deferring instead to a “functional”
analysis where the nature of the function performed, not
the identity of the actor, governs the immunity analysis.
It is worth noting that Canon 3 of the Louisiana
Code of Judicial Conduct, clearly recognizes the
dichotomy between adjudicative and administrative
duties. Specifically, Canon 3 (B) captioned “Administrative
Responsibilities” provides:
(1) A judge shall diligently discharge the judge’s
administrative responsibilities without bias
or prejudice and maintain professional
competence in judicial administration, . . ..
(2) A judge shall require staff, court officials and
others subject to the judge’s direction and
control to observe the standards of fidelity

29a
Appendix A
and diligence that apply to the judge and to
refrain from manifesting bias or prejudice
in the performance of their official duties.
(3) * * *
(4) A judge shall not make unnecessary
appointments. A judge should exercise
the power of appointment impartially
and on the basis of merit. A judge should
avoid appointments which tend to create
the appearance of impropriety. A judge
shall not approve the compensation of
appointees beyond the fair value of services
rendered . . ..
In my view the well pleaded facts of the petition at
issue here merely present the reverse factual scenario
confronting the Forrester, supra, court. There, a judge was
sued for allegedly wrongfully discharging an employee.
Here the gravamen of the complaint is that the defendants
did not terminate an employee who was performing her
duties improperly.1 Admittedly, La. R. S. 13:700 authorizes
1. For example: Paragraphs 9 and 10 of the petition allege
the law clerk is not a licensed attorney, implicating Canon 3 (B) (2),
relative to requiring staff to maintain professional competence,
Canon 3 (B) (4) relative to judges exercising the power of appointment
impartially based upon merit and not approving compensation beyond
the fair value of services rendered. Paragraph 28 alleges that the
law clerk has a history of committing payroll fraud and destroying
or concealing documents, implicating Canon 3 (B) (2) relative to
requiring staff to refrain from manifesting bias or prejudice in the
performance of their official duties and Cannon 3 (B) (4) relative

30a
Appendix A
each judge of the Fourth Judicial District Court to hire
a law clerk “to perform such research duties” as the
judge may assign. However, none of plaintiff’s allegations
against the law clerk pertain to her statutorily authorized
duties. Plaintiff’s litany of her alleged past malefactions
is not to assert a claim for damages resulting from them,
but rather to demonstrate the length of time over which
the alleged excesses occurred thereby suggesting her
employers, who simply happen to have been judges, failed
to properly supervise their employee.
Insofar as the law clerk herself is concerned, she is
only entitled to immunity when acting at the direction of a
judge or pursuant to an established rule of court. Oliva v.
to a judge making appointments that create the appearance of
impropriety. Paragraphs 32 through 35 and 38, alleging the clerk’s
newspaper article, “A modern guide to handle your scandal,” the
complaint made to the judges who initiated an investigation and
verified the facts but took no disciplinary or remedial action,
implicating Canon 3 (B) (1) relative to maintaining professional
competence in judicial administration, Canon 3 (B) (2) relative to
requiring staff to observe standards of fidelity and diligence and
to refrain from manifesting bias or prejudice in the performance
of their official duties and Canon 3 (B) (4) regarding appointments
that create the appearance of impropriety. Paragraphs 45, 46,
48 and 50 alleging the clerk’s spoliated, destroyed and withheld
records which certain defendants actively worked to cover up, again
implicating Canon 3 (A) (1) regarding judges discharging their
administrative responsibilities without bias or prejudice, Canon 3
(B) (2) regarding requiring staff to observe standards of fidelity and
competence applicable to judges and to refrain from manifesting bias
or prejudice in the performance of their duties and Canon 3 (B) (4)
regarding judges avoiding appointments that create the appearance
of impropriety.

31a
Appendix A
Heller, 839 Fed 2d 37 (2d Cir. 1988) only grants a law clerk
immunity when assisting a judge with his judicial functions:
“Accordingly, we hold that the defendant, who was clearly
assisting the judge in carrying out judicial functions was
covered by the doctrine of absolute immunity.” Oliva, supra,
at 40. See also Johnson v. Parish of Jefferson, 2009 U.S. Dist.
LEXIS 51863, 2009 WL 1808718: “Court employees who act
under the explicit instructions of a judge ‘acts as the arm
of the judge and comes with [sic] his absolute immunity,’
even if the employees act ‘in bad faith or with malice.’”
Williams v. Wood, 612 F.2d 982, 985 (5th Cir.1980). Mitchell
v. McBryde, 944 F.2d 229, 230-31 (5th Cir.1991). [Emphasis
added.] Likewise, Guccione v. Parish of Jefferson, 382 Fed.
Appx. 357, 2010 WL 2465039 (2010) teaches:
The remaining defendants in this lawsuit are
the employees of the Louisiana Fifth Circuit
Court of Appeal who acted pursuant to the
procedures allegedly implemented by the
judges. The district court determined correctly
that because they were only acting at the
express direction of the judges, to assist them
in carrying out their judicial functions, those
defendants are likewise entitled to absolute
judicial immunity with respect to Guccione’s
claim for monetary damages. See Mitchell v.
McBryde, 944 F.2d 229, 230-31 (5th Cir. 1991).
A careful review of the pleadings reveals no allegation that
the law clerk’s complained of actions were done pursuant to
established court policy or at the direction of a judge in aid of
judicial functions. Therefore, she is not entitled to immunity.

32a
Appendix b —Appendix
opinionBof the court
of appeal of louisiana, first circuit,
dated april 11, 2018
Court of Appeal of Louisiana
First Circuit
249 So.3d 945
2016 CA 1221
STANLEY R. PALOWSKY, III, INDIVIDUALLY,
AND ON BEHALF OF ALTERNATIVE
ENVIRONMENTAL SOLUTIONS, INC.
v.
ALLYSON CAMPBELL, et al.
April 11, 2018, Decided
Judgment Rendered: April 11, 2018
Rehearing Denied: June 4, 2018
On Appeal from the Fourth Judicial District Court,
In and for the Parish of Ouachita, State of Louisiana,
No. 15-2179. Honorable Jerome J. Barbera, III, Ad Hoc,
Judge Presiding.
B EFORE : W H IPPLE , C . J . , G UI D R Y ,
PETITIGREW, McDONALD, McCLENDON, WELCH,
HIGGINBOTHAM, CRAIN, THERIOT, HOLDRIDGE,
CHUTZ, AND PENZATO, JJ.

33a
Appendix B
OPINION
McCLENDON, J.
The plaintiff appeals a trial court’s judgment striking
forty-six paragraphs and three subparagraphs from his
eighty-eight paragraph petition for damages. He also
appeals the two trial court’s judgments that granted the
defendants’ peremptory exceptions raising the objection
of no cause of action, based on absolute immunity. For the
reasons that follow, we reverse in part and affirm in part
the judgment regarding the motion to strike. We affirm
the judgment that found no cause of action against the
defendant judges and reverse the judgment that found no
cause of action against the defendant law clerk.
FACTUAL AND PROCEDURAL HISTORY
On July 22, 2015, the plaintiff, Stanley R. Palowsky, III,
individually and on behalf of Alternative Environmental
Solutions, Inc., filed a Petition for Damages against the
defendant, Allyson Campbell, a law clerk for the Fourth
Judicial District Court (Fourth JDC), asserting that
Ms. Campbell maliciously and intentionally harmed
Mr. Palowsky “when she spoliated, concealed, removed,
destroyed, shredded, withheld, and/or improperly ‘handled’
court documents” in the matter entitled Palowsky v. Cork,
Docket No. 13-2059, of the Fourth JDC. Thereafter, on
July 31, 2015, Mr. Palowsky filed a First Supplemental,
Amended, and Restated Petition for Damages, adding as
defendants, Chief Judge H. Stephens Winters, Judge Carl
V. Sharp, Judge J. Wilson Rambo, and Judge Frederic C.

34a
Appendix B
Amman, current Fourth JDC judges, and retired Judge
Benjamin Jones, the current Fourth JDC administrator1
(the Judges), asserting that they aided and abetted Ms.
Campbell “by allowing her free rein to do as she pleased
and then conspiring to conceal [Ms.] Campbell’s acts.”
Subsequently, all the judges of the Fourth JDC recused
themselves from the matter, and the Louisiana Supreme
Court appointed retired Judge Jerome J. Barbera, III, as
judge ad hoc to preside over the case.
In response to Mr. Palowsky’s pleadings, Ms.
Campbell and the Judges each filed a motion to strike
specific paragraphs of Mr. Palowsky’s petition and various
exceptions, including the peremptory exception raising the
objection of no cause of action based on judicial immunity. 2
On November 5, 2015, the trial court held a hearing on
1. The petition alleges that the destruction of documents
occurred in 2014, at which time Judge Jones was a duly-elected judge
of the Fourth JDC. The petition further asserts that after March
2015, Judge Jones has been employed as the judicial administrator
for the Fourth JDC and acts as a “supernumerary” judge.
2. Additionally, Ms. Campbell and the Judges filed motions to
stay discovery until their motions to strike and exceptions could be
addressed. Following a hearing on the motions to stay discovery,
the trial court granted the motion and stayed discovery pending the
disposition of the motions to strike and exceptions. Mr. Palowsky filed
an application for supervisory writs with the Court of Appeal, Second
Circuit, which application was denied. Mr. Palowsky then sought a
writ of certiorari with the Louisiana Supreme Court. The supreme
court granted Mr. Palowsky’s writ application and, on November 3,
2015, issued a per curiam order directing the trial court to hear the
exceptions of no cause of action and the motions to strike, but defer
the hearing on the remaining exceptions.

35a
Appendix B
the motions to strike and the exceptions of no cause of
action. The trial court first addressed the motions to
strike and ordered that forty-six paragraphs and three
subparagraphs of Mr. Palowsky’s eighty-eight paragraph
amended petition be stricken, finding them to be
immaterial.3 After granting the motions to strike, the trial
court addressed the exceptions of no cause of action based
on the remaining paragraphs of Mr. Palowsky’s amended
petition. The trial court determined that the Judges and
Ms. Campbell were entitled to absolute immunity for their
alleged actions and granted the exceptions.
On December 11, 2015, the trial court signed a
judgment regarding the motions to strike filed by Ms.
Campbell and by the Judges. On that same date, the trial
court also signed a judgment granting the exception of no
cause of action in favor of Ms. Campbell and a judgment
granting the exception of no cause of action in favor of
the Judges, dismissing Mr. Palowsky’s case against them
with prejudice.
Mr. Palowsky filed an appeal of the three judgments
with the Court of Appeal, Second Circuit, and seven of the
judges of that court recused themselves. Therefore, on
September 7, 2016, the Louisiana Supreme Court ordered
the transfer of the appeal of the matter to the Court of
Appeal, First Circuit.

3. A copy of the First Supplemental, Amended, and Restated
Petition for Damages is attached hereto as “Attachment A.”

36a
Appendix B
ASSIGNMENTS OF ERROR
In his appeal, Mr. Palowsky has assigned the following
as error:
A. The trial court erred by finding that forty-six
paragraphs and three subparagraphs in Mr.
Palowsky’s amended petition were immaterial
and granting the defendants’ motions to strike
same.
B. The trial court erred by finding that the Judges
had absolute immunity from liability for their
actions and thereby granting their exception of
no cause of action.
C. The trial court erred by finding that Ms. Campbell
had absolute immunity from liability for her
actions and thereby granting her exception of no
cause of action.
D. The trial court erred in refusing to give Mr.
Palowsky the opportunity to amend his petition
to state a cause of action.
THE MOTIONS TO STRIKE
Louisiana Code of Civil Procedure Article 964
provides:
The court on motion of a party or on its
own motion may at any time and after a

37a
Appendix B
hearing order stricken from any pleading any
insufficient demand or defense or any redundant,
immaterial, impertinent, or scandalous matter.
The granting of a motion to strike pursuant to
Louisiana Code of Civil Procedure article 964 rests in the
sound discretion of the trial court and is reviewed under
the abuse of discretion standard. Pitre v. Opelousas Gen.
Hosp., 530 So.2d 1151, 1162 (La. 1988). See also Detillier
v. Borne, 15-129 (La.App. 5 Cir. 9/23/15), 176 So.3d 669,
671. Motions to strike are viewed with disfavor and
are infrequently granted. They are disfavored because
striking a portion of a pleading is a drastic remedy, and
because they are often sought by the movant simply as a
dilatory tactic. However, a motion to strike is proper if it
can be shown that the allegations being challenged are
so unrelated to a plaintiff’s claims as to be unworthy of
any consideration and that their presence in the pleading
would be prejudicial to the moving party. Carr v. Abel,
10-835 (La.App. 5 Cir. 3/29/11), 64 So.3d 292, 296, writ
denied, 11-0860 (La. 6/3/11), 63 So.3d 1016. See also Smith
v. Gautreau, 348 So.2d 720, 722 (La.App. 1 Cir. 1977). A
motion to strike is a means of clearing up the pleadings,
not a means of eliminating causes of action or substantive
allegations. Hicks v. Steve R. Reich, Inc., 38,424 (La.App.
2 Cir. 5/12/04), 873 So. 2d 849, 852; Hazelwood Farm, Inc.
v. Liberty Oil and Gas Corp., 01-0345 (La.App. 3 Cir.
6/20/01), 790 So.2d 93, 98.
Because the source of Article 964 is found in Rule
12(f) of the Federal Rules of Civil Procedure, we look to
federal jurisprudence to assist us in analyzing Article

38a
Appendix B
964.4 Smith, 348 So.2d at 722. The terms “redundant,
immaterial, impertinent, or scandalous matter” have been
defined in at least one federal case, Marceaux v. Lafayette
Consol. Government, 6:12-01532, 2012 U.S. Dist. LEXIS
150922 (W.D. La. 10/18/12) (unpublished), wherein the
court stated:
Redundant matter consists of allegations
that constitute a needless repetition of other
averments in the pleading. Immaterial matter
is that which has no essential or important
relationship to the claim for relief or the defenses
being pleaded. Immateriality is established
by showing that the challenged allegations
“can have no possible bearing upon the
subject matter of the litigation.” Impertinent
matter consists of statements that do not
pertain, and are not necessary, to the issues
in question; while scandalous matter is that
which improperly casts a derogatory light on
someone, most typically on a party to the action.
“The granting of a motion to strike scandalous
matter is aimed, in part, at avoiding prejudice
to a party by preventing a jury from seeing the
offensive matter or giving the allegations any
other unnecessary notoriety inasmuch as, once
filed, pleadings generally are public documents
and become generally available.”
4. Federal Rule of Civil Procedure 12(f) provides, in pertinent
part: “The court may strike from a pleading an insufficient defense
or any redundant, immaterial, impertinent, or scandalous matter.”

39a
Appendix B
Id. (footnotes with citations omitted); see also Bayou Fleet
Partnership, LLC v. St. Charles Parish, 10-1557, 2011
U.S. Dist. LEXIS 73867 (E.D. La. 7/8/11) (unpublished).
In this matter, Mr. Palowsky alleged that he is the
fifty-percent shareholder and director of Alternative
Environmental Solutions, Inc. (AESI). Mr. Palowsky also
asserted that he filed suit against W. Brandon Cork, the
other fifty-percent shareholder of AESI, for damages Mr.
Palowsky suffered as a result of Mr. Cork’s theft, fraud,
racketeering, and breach of fiduciary duty.
In his original petition against only Ms. Campbell,
Mr. Palowsky alleged that Ms. Campbell acted outside the
course and scope of her employment to maliciously and
intentionally harm Mr. Palowsky by allegedly destroying
or withholding certain court filings. Mr. Palowsky’s First
Supplemental, Amended, and Restated Petition for Damages
again stated that Ms. Campbell was acting outside the
course and scope of her employment duties and added the
Judges as defendants for allegedly “aiding and abetting [Ms.]
Campbell by allowing her free rein to do as she pleased and
then conspiring to conceal [Ms.] Campbell’s acts.” He did
not allege any participation on the part of the Judges in the
alleged destruction or withholding of court documents.
Ms. Campbell filed her motion to strike on August
10, 2015, and the Judges filed their motion on August 25,
2015, 5 in which the Judges and Ms. Campbell asserted
5. Ms. Campbell and the Judges also filed, as part of their
motions to strike, requests for contempt and for sanctions. However,
the sanctions and contempt requests have been stayed pending
resolution of this appeal.

40a
Appendix B
that most of Mr. Palowsky’s allegations of “fact” in his
amended petition were included for no other purpose
than to embarrass, harass, and unnecessarily criticize the
defendants. The trial court, in its oral reasons, discussed
the issues of immateriality and prejudice necessary for a
motion to strike pursuant to LSA-C.C.P. art. 964. As to
prejudice, the court stated:
[C]ertainly the allegations that have been made
about the previous events that go back even
the 2010 [event] involving Ms. Campbell and
then the other events that are alleged in the
petition, the amended petition, about the actions
and inactions of the judges certainly all of the
information provided is prejudicial because
it — it shows these parties to suggest to the
reader that these parties are acting contrary
to the ethics and responsibilities of their job
and these allegations point to the reader that
they’ve committed crime, and that they have
acted badly, and that something should happen
to them as a result of their activity. So there’s
no doubt that the allegations are prejudicial
because anyone who would read that if they
were convinced of the truth of it would form
conclusions both about Ms. Campbell and the
judges about their fitness and their ethics and
their responsibility. Anyone who would read
those allegations would certainly have questions
about those things. So I don’t think there’s any
doubt that the allegations that are at issue in
the case are prejudicial.

41a
Appendix B
Thereafter, the trial court addressed the second factor
of “whether or not these allegations have any bearing on
the subject matter of the litigation,” which it framed as
follows:
What this [amended] petition says is that
Allyson Campbell, a law clerk to the judges
of this district, an employee of the court,
caused harm to the plaintiff by her actions in
concealing, destroying, removing, withholding,
and improperly handling, and I’m not quoting
that verbatim, in improperly handling pleadings
and court documents pertaining to civil
litigation filed in this district by the plaintiff
against a former business associate. So that’s
how I would sum up the cause of action by the
plaintiff against Ms. Campbell. The petition
also says that the named defendant judges are
liable to the plaintiff for damages as a result
of their aiding and abetting Ms. Campbell and
conspiring to conceal her actions. So that’s my
summary of what this lawsuit is about.
The trial court then addressed the materiality of the
allegations, finding a difference between materiality and
admissible evidence at the trial of the matter, and stated:
[I]n looking at the other allegations of the
petition that the defendants seek to strike it is
evident to me that many of them are immaterial
to the cause of action. ... The question is, is
whether or not they are material to the cause of

42a
Appendix B
action. And I made a determination that most
of the [paragraphs] that are complained of are
not material.
The court concluded that the following paragraphs of
Mr. Palowsky’s petition contained allegations that were
immaterial to his lawsuit:
The court will strike Articles 11, 12, 13, 14, 15,
16, 17, 18, 19, 20, 21, 22, 23, 25, 26, 28, 29, 30, 31,
32, 33, 34, 35, 36, 37, 38, 39, 40, 42, paragraph
A of 52, and paragraph C of 52, paragraph E
of 52, 58, 59, 61, 62, 63, 64, 65, 66, 67, 68, 69, 70,
71, 79, 80, 81, and 82.
The paragraphs stricken included allegations of payroll
irregularities and investigations, as well as assertions
of payroll fraud by Ms. Campbell and a conspiracy to
cover up the fraud by the Judges. More specifically, the
petition asserted the existence of an investigation by the
Louisiana Legislative Auditor into possible payroll fraud
regarding some Fourth JDC employees being paid for
hours that were not worked. Other paragraphs stricken
as immaterial regarded the destruction or concealment
of documents in other cases by Ms. Campbell and the
subsequent knowledge by the Judges. Additionally,
paragraphs detailing Ms. Campbell’s personal life and
work habits were deleted by the trial court. Mr. Palowsky
asserted that Ms. Campbell boasted in a local bar that she
had shredded or withheld a court document in another
case and that she had a weekly “society” column entitled,
“A modern guide to handle your scandal,” in which she

43a
Appendix B
made comments, such as, “I represent to you all the sins
you have never had the courage to commit,” and, “It’s not
cheating if it’s in your favor.”
While many of the stricken allegations in Mr.
Palowsky’s amended petition have nothing to do with his
present lawsuit, some of the stricken paragraphs arguably
show a prior history of concealment or destruction of court
documents by Ms. Campbell. Particularly, Paragraphs 28,
29, 30, 31, 32, 33, 34, 35, 36, 37, 38, 40, and 52C refer to the
alleged destruction or concealment of court documents by
Ms. Campbell in a case handled by another attorney in
the Fourth JDC and the Judges’ subsequent knowledge
of same. Upon careful review of these allegations, and
finding that they could have some bearing on the subject
matter of the litigation, in that they allege a pattern of
behavior by Ms. Campbell of destroying court documents,
we cannot find that these paragraphs are immaterial to
this matter. Therefore, we find that the trial court abused
its discretion in striking Paragraphs 28, 29, 30, 31, 32,
33, 34, 35, 36, 37, 38, 40, and 52C. Additionally, we find
an abuse of discretion in striking Paragraphs 58, 61, 63,
68, 69, 71, 80, and 81 as they also refer to Ms. Campbell’s
pattern of behavior or willingness to act in such a manner.
Therefore, we reverse in part the December 11, 2015
judgment of the trial court insofar as it granted the motions
to strike by the Judges and by Ms. Campbell with regard
to Paragraphs 28, 29, 30, 31, 32, 33, 34, 35, 36, 37, 38, 40,
52C, 58, 61, 63, 68, 69, 71, 80, and 81 of Mr. Palowsky’s
amended petition, finding those paragraphs material to
the instant matter. We find no abuse of discretion by the

44a
Appendix B
trial court in striking as immaterial Paragraphs 11, 12,
13, 14, 15, 16, 17, 18, 19, 20, 21, 22, 23, 25, 26, 39, 42, 52A,
52E, 59, 62, 64, 65, 66, 67, 70, 79, and 82.
NO CAUSE OF ACTION
As used in the context of the peremptory exception,
a “cause of action” refers to the operative facts which
give rise to the plaintiff’s right to judicially assert the
action against the defendant. Scheffler v. Adams and
Reese, LLP, 06-1774 (La. 2/22/07), 950 So.2d 641, 646;
Ramey v. DeCaire, 03-1299 (La. 3/19/04), 869 So.2d 114,
118. The purpose of the peremptory exception raising
the objection of no cause of action is to test the legal
sufficiency of the petition by determining whether the
law affords a remedy on the facts alleged in the petition.
Scheffler, 950 So.2d at 646; Ramey, 869 So.2d at 118. No
evidence may be introduced to support or controvert the
exception of no cause of action. LSA-C.C.P. art. 931. The
exception is triable on the face of the pleadings, and, for
purposes of resolving the issues raised by the exception,
the well-pleaded facts in the petition must be accepted as
true. Scheffler, 950 So.2d at 646; Fink v. Bryant, 01-0987
(La. 11/28/01), 801 So.2d 346, 349. The issue at the trial
of the exception is whether, on the face of the petition, the
plaintiff is legally entitled to the relief sought. Scheffler,
950 So.2d at 646; Ramey, 869 So.2d at 118.
Louisiana retains a system of fact pleading, and mere
conclusions of the plaintiff unsupported by facts will not
set forth a cause or right of action. Scheffler, 950 So.2d
at 646-47; Montalvo v. Sondes, 93-2813 (La. 5/23/94), 637

45a
Appendix B
So.2d 127, 131. The burden of demonstrating that a petition
fails to state a cause of action is upon the mover. Scheffler,
950 So.2d at 647; Ramey, 869 So.2d at 119. Because the
exception of no cause of action raises a question of law and
the trial court’s decision is based solely on the sufficiency
of the petition, review of the trial court’s ruling on an
exception of no cause of action is de novo. Scheffler, 950
So.2d at 647; Fink, 801 So.2d at 349. The pertinent inquiry
is whether, in the light most favorable to the plaintiff,
and with every doubt resolved in the plaintiff’s favor, the
petition states any valid cause of action for relief. Scheffler,
950 So.2d at 647; Ramey, 869 So.2d at 119.
The doctrine of judicial immunity developed at common
law as a shield intended to protect judges from civil suits
for damages for actions taken in their judicial capacity.
Pierson v. Ray, 386 U.S. 547, 554, 87 S. Ct. 1213, 1217, 18
L. Ed. 2d 288, 294 (1967). The doctrine can be traced back
to the successful efforts of the King’s Bench to ensure the
supremacy of the common-law courts. Pulliam v. Allen,
466 U.S. 522, 530, 104 S.Ct. 1970, 1974-75, 80 L.Ed.2d 565,
571 (1984). The fundamental policy principle underlying
the doctrine of judicial immunity was reiterated by the
United States Supreme Court in Bradley v. Fisher, 80
U.S. (13 Wall.) 335, 347, 20 L.Ed. 646, 649 (1871), where
the Court held that “it is a general principle of the highest
importance to the proper administration of justice that a
judicial officer, in exercising the authority vested in him,
shall be free to act upon his own convictions, without
apprehension of personal consequences to himself.” See
also Estate of Sherman v. Almeida, 747 A.2d 470, 473-74
(R.I. 2000). The Supreme Court more recently observed

46a
Appendix B
that “[f]ew doctrines were more solidly established at
common law than the immunity of judges from liability
for damages for acts committed within their judicial
jurisdiction.” Cleavinger v. Saxner, 474 U.S. 193, 199, 106
S.Ct. 496, 499-500, 88 L.Ed.2d 507 (1985) (quoting Pierson
v. Ray, 386 U.S. at 553-54, 87 S. Ct. at 1217).
Accordingly, a long line of Supreme Court cases
acknowledge that, generally, a judge is immune from a suit
for money damages. Mireles v. Waco, 502 U.S. 9, 9-10, 112
S. Ct. 286, 287, 116 L. Ed. 2d 9 (1991) (citations omitted).
Courts have consistently held that judicial immunity is an
immunity from suit, not just the ultimate assessment of
damages. Mireles, 502 U.S. at 11, 112 S. Ct. at 288 (citing
Mitchell v. Forsyth, 472 U.S. 511, 526, 105 S. Ct. 2806,
86 L. Ed. 2d 411 (1985)). In Pierson, the Supreme Court
stated that judicial immunity applies even when the judge
is accused of acting maliciously and corruptly, and it is not
for the protection or benefit of a malicious or corrupt judge,
but for the benefit of the public, whose interest it is that the
judges should be at liberty to exercise their functions with
independence and without fear of consequences. Pierson,
386 U.S. at 554, 87 S. Ct. at 1218. It is a judge’s duty to
decide all cases within his jurisdiction that are brought
before him, including controversial cases that arouse the
most intense feelings in the litigants. His errors may
be corrected on appeal, but he should not have to fear
that unsatisfied litigants may hound him with litigation
charging malice or corruption. Imposing such a burden
on judges would contribute not to principled and fearless
decision making but to intimidation. Id.; see also Oliva v.
Heller, 839 F.2d 37, 39 (2nd Cir. 1988).

47a
Appendix B
The Supreme Court again explained the purposes
served by judicial immunity in Forrester v. White, 484
U.S. 219, 226-27, 108 S. Ct. 538, 544, 98 L. Ed. 2d 555
(1988), stating that the nature of the adjudicative function
requires a judge frequently to disappoint some of the most
intense and ungovernable desires that people can have. If
judges were personally liable for erroneous decisions, the
resulting avalanche of suits, most of them frivolous but
vexatious, would provide powerful incentives for judges
to avoid rendering decisions likely to provoke such suits.
The resulting timidity would be hard to detect or control,
and it would manifestly detract from independent and
impartial adjudication. Id.
There are only two circumstances under which judicial
immunity may be overcome. First, a judge is not immune
from liability for nonjudicial actions, i.e., actions not
taken in the judge’s judicial capacity. Second, a judge is
not immune for actions, though judicial in nature, taken
in the complete absence of all jurisdiction. Mireles, 502
U.S. at 11-12, 112 S. Ct. at 288. Allegations of bad faith or
malice are not sufficient to overcome judicial immunity.
Mireles, 502 U.S. at 11, 112 S. Ct. at 288. See also Kemp
ex rel. Kemp v. Perkins, 324 Fed.Appx. 409, 411 (5th Cir.
2009) (unpublished).
“[W]hether an act by a judge is a ‘judicial’ one relate[s]
to the nature of the act itself, i.e., whether it is a function
normally performed by a judge, and to the expectations of
the parties, i.e., whether they dealt with the judge in his
[or her] judicial capacity.” Mireles, 502 U.S. at 12, 112 S.
Ct. at 288 (quoting Stump v. Sparkman, 435 U.S. 349, 362,

48a
Appendix B
98 S.Ct. 1099, 1107, 55 L.Ed.2d 331 (1978)). The relevant
inquiry is the nature and function of the act, not the act
itself. In other words, a court should look to the particular
act’s relation to a general function normally performed
by a judge. Mireles, 502 U.S. at 13, 112 S. Ct. at 288. The
United States Fifth Circuit has adopted a four-factor test
for determining whether a judge’s actions are judicial
in nature: (1) whether the precise act complained of is a
normal judicial function; (2) whether the acts occurred in
the courtroom or appropriate adjunct spaces such as the
judge’s chambers; (3) whether the controversy centered
around a case pending before the court; and (4) whether
the acts arose directly out of a visit to the judge in his
official capacity. Ballard v. Wall, 413 F.3d 510, 515 (5th Cir.
2005) (citing Malina v. Gonzales, 994 F.2d 1121, 1124 (5th
Cir.1993)); McAlester v. Brown, 469 F.2d 1280, 1282 (5th
Cir. 1972). These factors are broadly construed in favor
of immunity. Ballard, 413 F.3d at 515; Malina, 994 F.2d
at 1124. See also Davis v. Tarrant County, Tex., 565 F.3d
214, 222-23 (5th Cir. 2009). Further, in some situations,
immunity is to be afforded even though one or more of the
four factors is not met. Malina, 994 F.2d at 1124.
“When applied to the paradigmatic judicial acts
involved in resolving disputes between parties who have
invoked the jurisdiction of a court, the doctrine of absolute
judicial immunity has not been particularly controversial,”
but “attempting to draw the line between truly judicial
acts, for which immunity is appropriate, and acts that
simply happen to have been done by judges” has proven
to be a more difficult task. Forrester, 484 U.S. at 227,
108 S. Ct. at 544. Immunity is justified and defined by

49a
Appendix B
the functions it protects and serves, not by the person to
whom it attaches. Id. The Supreme Court has forcefully
indicated that the limits of judicial immunity are not to
be set by subtle legalistic distinctions; rather, a broad
functional approach is required: “Judges have absolute
immunity not because of their particular location within
the Government but because of the special nature of their
responsibilities.” Butz v. Economou, 438 U.S. 478, 511,
98 S.Ct. 2894, 2913, 57 L.Ed.2d 895 (1978); Holloway v.
Walker, 765 F.2d 517, 524 (5th Cir. 1985).
In determining whether a judge is entitled to absolute
immunity for a particular act, a court must also draw a
“distinction between judicial acts and the administrative,
legislative, or executive functions that judges may on
occasion be assigned by law to perform.” Forrester,
484 U.S. at 227, 108 S. Ct. at 544. See also Huminski
v. Corsones, 396 F.3d 53, 75 (2nd Cir. 2005). Although
administrative decisions “may be essential to the very
functioning of the courts,” such decisions have not been
regarded as judicial acts. Forrester, 484 U.S. at 228, 108
S. Ct. at 544; Davis, 565 F.3d at 222.
Additionally, judicial immunity does not extend to
acts committed with a clear absence of all jurisdiction.
However, the term “jurisdiction” is to be broadly
construed to effectuate the policies of guaranteeing a
disinterested and independent judicial decision-making
process. Stump, 435 U.S. at 356-57, 98 S. Ct. at 1105;
Holloway, 765 F.2d at 523. Where a judge does not clearly
lack all subject-matter jurisdiction, he does not clearly
lack all jurisdiction, and “the same principle of exemption

50a
Appendix B
from liability which obtains for errors committed in the
ordinary prosecution of a suit where there is jurisdiction of
both subject and person, applies in cases of this kind, and
for the same reasons.” Bradley, 80 U.S. at 352; Holloway,
765 F.2d at 523.
Louisiana jurisprudence on judicial immunity mirrors
the federal doctrine. Viator v. Miller, 04-1199 (La.App.
3 Cir. 4/27/05), 900 So.2d 1135, 1140; McCoy v. City of
Monroe, 32,521 (La.App. 2 Cir. 12/8/99), 747 So.2d 1234,
1241, writ denied, 00-1280 (La. 3/30/01), 788 So. 2d 441.
Judges may not be cast for damages for their errors unless
they have acted outside of their judicial capacity. It has
long been held on the grounds of necessity and public
policy that judges acting within the scope of their subject
matter jurisdictions cannot be held liable for acts done in
their judicial capacities. Knapper v. Connick, 96-0434 (La.
10/15/96), 681 So.2d 944, 946; Haley v. Leary, 09-1626 (La.
App. 4 Cir. 8/4/10), 69 So. 3d 430, 432-33, writ denied, 102265 (La. 12/17/10), 51 So. 3d 14, cert. denied, 565 U.S. 820,
132 S.Ct. 104, 181 L.Ed.2d 32. The immunity is extended
because of the function it protects rather than the title
of the person who claims it. Absolute immunity attaches
to all acts within a judge’s jurisdiction, even if those acts
can be shown to have been performed with malice, in
order to insure that all judges will be free to fulfill their
responsibilities without the threat of civil prosecution by
disgruntled litigants. Knapper, 681 So.2d at 946; Haley,
69 So. 3d at 433.
With regard to law clerks, a law clerk is probably
the one participant in the judicial process whose duties

51a
Appendix B
and responsibilities are most intimately connected with
the judge’s own exercise of the judicial function. Oliva,
839 F.2d at 40. A judicial opinion is not that of the law
clerk, but of the judge. However, law clerks are closely
connected with the court’s decision-making process and
are sounding boards for the judge’s tentative opinions
and legal researchers who seek the authorities that affect
those decisions. Clerks are privy to the judge’s thoughts
in a way that neither parties to the lawsuit nor his most
intimate family members may be. Moreover, the work
done by law clerks is supervised, approved, and adopted
by the judges who initially authorized it. Law clerks are
essentially extensions of the judges at whose pleasure
they serve. Therefore, a law clerk who is clearly assisting
the judge in carrying out judicial functions is covered by
the doctrine of absolute immunity. Id. See also Mitchell
v. McBryde, 944 F.2d 229, 230 (5th Cir. 1991). Essentially,
the immunity granted to the law clerk is derivative of the
immunity afforded the judge and flows from that judicial
immunity.
In this matter, after granting the motions to strike,
the trial court considered the exceptions of no cause of
action filed by Ms. Campbell and by the Judges. The
Judges and Ms. Campbell maintain that the trial court
correctly granted the exceptions after finding that they
were entitled to absolute immunity. In granting the
exception of no cause of action filed by the Judges, the
trial court stated:
There is no question in my mind that supervision
and control of a law clerk employed by a district

52a
Appendix B
court is something that would be within the
jurisdiction of a district court judge. ... The
judge has to decide what cases to give to the
clerk. The judge has to decide what he wants
the clerk to do with regard to those cases. That
clerk might have other duties, but all of the
duties of the clerk of course are what the judge
decides they should be or not be. So there’s no
doubt that with regard to the actions of the
judges in this case in their contact with and
in their relationship as the employer of Ms.
Campbell that their actions are within their
jurisdiction. That other factor is whether the
actions are judicial in nature is what is — seems
to be the most [contentious] in this case.
The court then discussed the four factors used to
determine if acts are judicial in nature, stating:
I’ve already stated in reference to the jurisdiction
issue about whether or who is involved in the
assignment of work and supervision of law clerks
and certainly that is a normal judicial function,
the supervision, management, assignment,
and control of a law clerk is certainly a normal
judicial function. There’s no one else to perform
that function. There’s no one else that should
perform that function. So number one is
clearly satisfied. Number two, is whether the
acts occurred in the courtroom or appropriate
adjunct spaces. ... [I]f there’s a complaint that
a judge failed to supervise or conspired in

53a
Appendix B
supervision or in concealing wrongful acts of
a law clerk the question is not whether the
judge’s actions take him or her out of immunity
because you don’t examine the act itself. You
examine the nature and function of it, and
that is the contact between the judge and the
law clerk which is a judicial function. So that’s
where the inquiry with regard to immunity
ends. It’s not with attempting to separate a
particular act out; it’s the nature and function
of the act which in this case is the allegation
that the judges in their role of supervision failed
to act properly. Number three, whether this
controversy centered around a case pending
before the court? Well, there’s no doubt about
that. That’s exactly what the petition is about.
That all of this was done to the prejudice of Mr.
Palowsky in the case of Palowsky versus Cork.
That’s what the case is about. So that factor is
met. The fourth factor, whether the acts arose
directly out of a visit to the judge in his official
capacity? Those — that particular factor of
course addresses issues or situations where a
judge may have made a ruling in the courtroom
that someone was aggrieved by. Circumstances
don’t always permit the application of that,
and as Malina says in some situations and I’m
quoting from the Malina case; immunity is
to be afforded even though one or more of the
McAlester factors is not met, and certainly
that is the case here. Malina also reminds us
that the concept of immunity is to be broadly

54a
Appendix B
construed in favor of granting immunity. The
allegations of the petition against the judges
clearly fall inside these factors, and the judges
in this case are granted absolute immunity in
the law for their alleged acts of wrongdoing.
Then, in discussing whether Ms. Campbell was
entitled to immunity, the trial court stated:
The question of whether a law clerk should
be granted immunity is generally tied to the
judge being granted immunity because they
generally occur at the same time. ... And what
the courts say is that it doesn’t make any sense
to grant immunity to the judge and then leave
the law clerk exposed to liability for being part
of the same judicial process. ... I recognize
the difference in the facts of this case from
the facts of most cases that you read about
immunity of law clerks. As I said generally
the judge gets sued, and when the judge gets
sued you know the disgruntled litigant sues
everybody that was involved in the process
that he’s disgruntled about. The difference in
this case is that the lawsuit starts off against
Ms. Campbell alleging that she committed
wrongful acts with regard to Mr. Palowsky’s
case against Mr. Cork. The petition never
alleges that Ms. Campbell took those actions at
the direction of the judge, the judge assigned
to the case or any other judge. Never says
that. And then the amending petition adds the

55a
Appendix B
judges as conspirators and enablers. So it’s
in a factual basis chronologically it’s not what
you see in most of the other cases. But there
is no distinction in the way that the actions
of Ms. Campbell — there is no distinction in
the application of immunity to the facts of this
case, as alleged. There is no reason why I would
be directed in another direction to apply the
law of immunity to Ms. Campbell in this case
because of the chronology of what the plaintiff
says happened or didn’t happen. Her actions,
alleged actions, regarding mishandling and
destroying documents in the plaintiff’s lawsuit
are nonetheless actions involving a pending
case in the judicial process. So she under the
law is entitled to absolute immunity as directed
by the cases and by the body of jurisprudence
that governs this concept.
Upon our de novo review, after carefully considering
the applicable law and jurisprudence, in light of the
underlying purpose of the judicial immunity doctrine, we
conclude that Mr. Palowsky has stated a cause of action
against Ms. Campbell. As previously stated, a law clerk’s
actions in assisting a judge to carry out judicial functions
are covered by the doctrine of absolute immunity. The
review, handling, and consideration of the record are
all part of the judicial process. However, that immunity
cannot extend to the independent act by a law clerk
of intentionally destroying documents or withholding
documents from the judge or jury without the judge’s
knowledge. The intentional destruction or concealment

56a
Appendix B
of court documents that was not at the direction or
instruction of a judge, as alleged herein, is not part of
the adjudicative process. Rather, it is the antithesis of the
judicial function. Mr. Palowsky asserts that Ms. Campbell
was “uncontrollable for years” and acting independently
outside the scope of her judicial functions as an employee of
the court. As alleged, Ms. Campbell was neither assisting
the Judges in carrying out judicial functions nor acting
at the direction of any judge and was acting in the clear
absence of all jurisdiction. See Oliva, 839 F.2d at 40.
Therefore, we conclude that Mr. Palowsky has stated a
cause of action against Ms. Campbell insofar as he has
asserted the intentional concealment or destruction of
documents from the court outside of any directive from
a judge, and we reverse the December 11, 2015 judgment
that sustained Ms. Campbell’s exception of no cause of
action to the extent that it finds Ms. Campbell absolutely
immune for the intentional destruction of court documents.
As to the Judges, we conclude that they have absolute
judicial immunity from Mr. Palowsky’s lawsuit. The
allegations directed to the Judges in Mr. Palowsky’s
First Supplemental, Amended, and Restated Petition for
Damages do not deprive them of judicial immunity. This
immunity applies, “however erroneous the act may have
been, and however injurious in its consequences it may
have proved to the plaintiff.” Cleavinger, 474 U.S. at 199200, 106 S. Ct. at 500 (quoting Bradley, 80 U.S. at 347).
See also Mitchell, 944 F.2d at 230. Indeed, where a court
has some subject-matter jurisdiction, there is sufficient
jurisdiction for immunity purposes. Kemp ex rel. Kemp,
324 Fed.Appx. at 412. There is a meaningful distinction

57a
Appendix B
between judicial acts which occur in excess of jurisdiction,
which receive judicial immunity, and those which take
place wholly lacking jurisdiction, which do not. Id. at
412-13. As to the allegations against the Judges, even
were they acting in excess of jurisdiction, they were not
acting in the clear absence of jurisdiction. The Supreme
Court has explained that “[a] judge will not be deprived
of immunity because the action he took was in error, was
done maliciously, or was in excess of his authority; rather,
he will be subject to liability only when he has acted in
the ‘clear absence of all jurisdiction.”’ Stump, 435 U.S. at
356-57, 98 S. Ct. at 1105 (quoting Bradley, 80 U.S. at 351).
Moreover, the actions or inactions of the Judges,
in allegedly conspiring to conceal the actions of Ms.
Campbell, would have been taken in their judicial capacity
in working and interacting with Ms. Campbell within
the parameters of the judicial process. There are no
allegations of participation by the Judges in the destruction
of documents and only allegations of knowledge by the
Judges of the destruction of documents after the fact.
The allegations against the Judges amount to a failure to
properly supervise Ms. Campbell in the handling of cases
before the court and the failure to reveal her actions once
discovered. Looking at the nature and function of the
actions of the Judges, and not the acts themselves, the
Judges’ actions encompass the supervision of and working
with a law clerk on cases before them. 6 Accordingly,
6. Even though judges may have judicial immunity, this does
not preclude litigants from seeking other remedies. See Mireles,
502 U.S. at 10 n.1, 112 S. Ct. at 287 n.1 (where the Court recognized
that a judge is not absolutely immune from criminal liability, from

58a
Appendix B
we cannot find error and affirm the December 11, 2015
judgment of the trial court that sustained the Judges’
exception of no cause of action and dismissed all claims
against the Judges with prejudice.7
CONCLUSION
For the above and foregoing reasons, we reverse in
part the December 11, 2015 judgment of the trial court
insofar as it granted the motions to strike by the Judges
and by Ms. Campbell with regard to Paragraphs 28, 29, 30,
31, 32, 33, 34, 35, 36, 37, 38, 40, 52C, 58, 61, 63, 68, 69, 71,
80, and 81 of Mr. Palowsky’s amended petition. We affirm
the judgment striking Paragraphs 11, 12, 13, 14, 15, 16,
17, 18, 19, 20, 21, 22, 23, 25, 26, 39, 42, 52A, 52E, 59, 62,
64, 65, 66, 67, 70, 79, and 82. We also affirm the December
11, 2015 judgment of the trial court that sustained the
Judges’ peremptory exception raising the objection of no
cause of action and dismissed all claims against the Judges
with prejudice. Lastly, we reverse the December 11, 2015
judgment that sustained Ms. Campbell’s peremptory
exception raising the objection of no cause of action to
the extent that it finds Ms. Campbell absolutely immune
for the intentional destruction of court documents. Costs
of this appeal shall be shared one-half by the plaintiff,
a suit for prospective injunctive relief, or from a suit for attorney
fees authorized by statute).

7. Further, because we conclude that the Judges are absolutely
immune from suit herein, we pretermit discussion of Mr. Palowsky’s
fourth assignment of error wherein he contends that the trial court
erred in refusing to give him the opportunity to amend his petition
to state a cause of action.

59a
Appendix B
Stanley R. Palowsky, III, individually and on behalf of
Alternative Environmental Solutions, Inc., and one-half
by the defendant, Allyson Campbell, and the defendants,
Chief Judge H. Stephens Winters, Judge Carl V. Sharp,
Judge J. Wilson Rambo, Judge Frederic C. Amman, and
Judge Benjamin Jones.
DECEMBER 11, 2015 JUDGMENT ON MOTIONS
TO STRIKE REVERSED IN PART AND AFFIRMED
I N PA RT; DECEM BER 11, 2 015 J U DGMEN T
DISMISSING DEFENDANT JUDGES AFFIRMED;
DECEMBER 11, 2015 JUDGMENT DISMISSING
DEFENDANT CAMPBELL REVERSED.

60a
Appendix B
ATTACHMENT A
STATE OF LOUISIANA
PARISH OF OUACHITA
FOURTH DISTRICT COURT
NO. 15-2179
STANLEY R. PALOWSKY, III, Individually, and
on behalf of ALTERNATIVE ENVIRONMENTAL
SOLUTIONS, INC.
VERSUS
ALLYSON CAMPBELL
FILED: July 31, 2015
FIRST SUPPLEMENTAL, AMENDED, AND
RESTATED PETITION FOR DAMAGES
NOW INTO COURT, through undersigned counsel,
comes Plaintiff, Stanley R. Palowsky, III, who appears
herein individually and as a 50-percent shareholder and
director of Alternative Environmental Solutions, Inc.
(“AESI”), a Louisiana corporation, and who submits his
First Supplemental, Amended, and Restated Petition
for Damages, without leave of Court as the originallynamed defendant has not yet filed responsive pleadings,
as follows:

61a
Appendix B
1.
Made defendants herein are the following individuals:
A. Allyson Campbell, an individual of the full age
of majority and a resident and domiciliary of the
Parish of Ouachita, State of Louisiana;
B. Chief Judge H. Stephens Winters, an individual
of the full age of majority and a resident and
domiciliary of the Parish of Ouachita, State of
Louisianan;
C. Judge Carl V. Sharp, an individual of the full age
of majority and a resident and domiciliary of the
Parish of Ouachita, State of Louisiana;
D. Judge Benjamin Jones, an individual of the full
age of majority and a resident and domiciliary of
the Parish of Ouachita, State of Louisiana;
E. Judge J. Wilson Rambo, an individual of the full
age of majority and a resident and domiciliary of
the Parish of Ouachita, State of Louisiana; and
F. Judge Frederic C. Amman, an individual of the
full age of majority and a resident and domiciliary
of the Parish of Ouachita, State of Louisiana.
2.
Pursuant to Louisiana Code of Civil Procedure article
615, made nominal defendant herein is AESI. Palowsky

62a
Appendix B
states that it would be a vain and useless act for him to
demand that AESI bring the present action as the other
50-percent shareholder of AESI is W. Brandon Cork,
who, as discussed below, has been sued by Palowsky in a
related action.
3.
At all pertinent times, Defendant Campbell was acting
under color of law but outside the course and scope of her
employment duties as a non-attorney law clerk for the
Fourth Judicial District Court (“Fourth JDC”).
4.
At all pertinent times through December 2014,
Defendant Jones was employed as a duly-elected judge of
the Fourth JDC sworn to uphold the laws and Constitution
of this State and abide by the Code of Judicial Conduct.
Since March 2015, he has been employed as the Judicial
Administrator of the Fourth JDC, a position for which
he receives state monies in addition to his retirement
funds to perform administrative tasks and act as a
“supernumerary” judge.
5.
At all pertinent times, Defendants Winters, Sharp,
Rambo, and Amman were employed as duly-elected
judges.of the Fourth JDC sworn to uphold the laws and
Constitution of this State and abide by the Code of Judicial
Conduct.

63a
Appendix B
6.
Defendants Winters, Sharp, Jones, Rambo, and
Amman (collectively referred to as “Defendant Judges”)
were acting under color of law but were acting in an
administrative capacity when they committed the acts
and/or omissions set forth herein; therefore, they are not
entitled to judicial immunity from liability arising from
same.
7.
As set forth below, Defendant Campbell is liable to
Palowsky for the damages he has suffered as the result of
her fraud, conspiracy to commit fraud, abuse of process,
destruction or concealment of public records, intentional
infliction of emotional distress, and violation of his rights
under the Louisiana Constitution to due process and
access to courts. Defendant Judges are liable in solido
to Palowsky for damages he has suffered as the result of
their aiding and abetting Campbell by allowing her free
rein to do as she pleased and then conspiring to conceal
Campbell’s acts which compounded the adverse effects of
her acts on Palowsky.
8.
Palowsky submits first, though, that his allegations
against Defendants must be viewed in light of other actions
they have taken in recent years.

64a
Appendix B
Campbell’s History of Payroll Fraud and Defendant
Judges’ Complicit Cover-Up of Same
9.
Defendant Campbell is the highest paid law clerk in
the Fourth JDC even though she is the only Fourth JDC
law clerk who is not a licensed attorney and even though
there is at least one law clerk who has been employed there
longer than she has been.
10.
Upon information and belief, Campbell has not been
to a continuing legal education course since graduating
from law school in Alabama 15 years ago. Instead, she
apparently receives continuous on-the-job training from
different judges.
11.
On March 3, 2015, The News-Star reported that
the Louisiana Legislative Auditor had issued a report
indicating that some Fourth JDC employees might have
been paid for hours which were not worked. In other
words, payroll fraud had probably been committed.
12.
Defendant Campbell was apparently the only subject
of the Auditor’s report on suspected payroll fraud.

65a
Appendix B
13.
Upon information and belief, unlike all other law
clerks employed by the Fourth JDC, Campbell reportedly
did not electronically enter the time she spent at work
until after May 2014, a month she “unexpectedly” had
off without pay. Furthermore, her office reportedly went
vacant for days, if not weeks, at a time.
14.
Moreover, Campbell has posted several pictures on
her Facebook page which were viewable by the public1 and
which indicated that she not only did her job in restaurants
and/or bars, but also that she drank alcohol while doing
so, For example, she captioned one picture, which was
obviously taken in a restaurant and which showed food
and alcoholic beverages, “Seafood nachos at the office.”
She then posted a picture from the same restaurant of her
half-eaten meal and two empty glasses and commented,
“Too many house hooker drinks.”
15.
Notably, Defendants Amman, Sharp, and Rambo,
along with Judge B. Scott Leehy, certified Campbell’s
time sheets and records for state payroll.

1. Campbell has subsequently either removed the photographs
from her Facebook account or changed her privacy settings so that
the general public cannot view her pictures.

66a
Appendix B
16.
Defendant Judges all owe an administrative duty to
properly audit, investigate, and report suspected payroll
fraud.
17.
A s Chief Judge, Defendant Winters’ present
administrative duties and responsibilities include the
proper auditing, investigating, and reporting of any
suspected payroll fraud.
18.
Nonetheless, Defendant Judges have not only allowed
Campbell to commit payroll fraud, but they have also
actively schemed to cover up same.
19.
As just one example, Defendant Winters filed suit
number 15-0770 on March 20, 2015, against Hanna Media
Inc., d/b/a/ The Ouachita Citizen newspaper, after it filed
a criminal complaint against the Court over public records
requests dealing with the Court’s internal investigations
of possible payroll fraud involving Campbell as well as
her felonious destruction of court documents, which is
discussed below.

67a
Appendix B
20.
In that suit, the Court argued that Campbell’s right to
privacy with regard to her employment file was stronger
than the public’s right to know if its tax funds were being
used to pay someone who was committing, or allegedly
committing, payroll fraud. Campbell intervened in that
suit and, thereby, became a party to the litigation.
21.
Even though the Legislative Auditor had reported
that some court employees might have been paid for hours
which they did not work, and even though Campbell had
posted pictures on her Facebook page which indicated
that she was eating and drinking alcohol at her “office,”
i.e., restaurants or bars, Defendant Winters, on behalf
of the Court, stridently protected Campbell’s privacy
“rights” and deprived the public of the opportunity to
learn whether they were paying her to “work” while she
was out of the office eating and drinking alcohol.
22.
Additionally, in that same litigation, a draft judgment
which was unsigned, undated, and unfiled in the suit
record was somehow received and circulated by and
between Campbell, a party litigant, and Defendant Jones
more than one week in advance of any signed and dated
judgment or reasons for judgment being made available
to the public or to the defendant therein.

68a
Appendix B
23.
In an interview with The Ouachita Citizen, Judge
Jones admitted the impropriety of having an unsigned
and undated draft of a judgment before same is released
to all parties in the litigation, but he refused to state from
whom he obtained such document and, more disturbingly,
when it was obtained.
24.
Upon information, Defendant Campbell had two
deputy clerks of court aiding and abetting her document
destruction, removal, and/or mishandling.
25.
Palowsky avers that Defendants Jones and Campbell
were clandestinely working to improperly obtain ex
parté the judgment of the ad hoc judge assigned to
hear Defendant Winters’ lawsuit, if not to actually help
influence and/or draft the judgment.
26.
Given these facts, Palowsky submits that not only
were Defendant Judges complicit in Defendant Campbell’s
payroll fraud, but they also schemed and conspired with
her to conceal the fraud from the tax-paying public.

69a
Appendix B
Campbell’s History of Destruction, Mishandling,
and/or Concealment of Documents and Defendant
Judges’ Complicit Cover-Up of Same
27.
Defendant Judges all owe an administrative duty to
properly audit, investigate, and report suspected document
destruction, concealment, and/or mishandling. As Chief
Judge, Defendant Winters’ present administrative
duties and responsibilities include, the proper auditing,
investigating, and reporting of any suspected document
destruction, concealment, and/or mishandling.
28.
In addition to having a history of committing payroll
fraud, Campbell also has a history of destroying and/or
concealing court documents, and Defendant Judges have
covered this up to protect Campbell.
29.
For example, in 2012, Monroe attorney Cody Rials
complained to Defendant Sharp that Campbell had
withheld and/or shredded his court document in a case
that was pending before said judge.
30.
Upon information and belief, the investigation of
Campbell’s suspected felonious conduct was assigned

70a
Appendix B
to Defendant Sharp, who, upon information and belief,
interviewed an eyewitness who confirmed that he observed
Campbell bragging in a local bar that she had destroyed
Rials’ court document. Nevertheless, Sharp, who found the
eyewitness to be credible, refused to investigate further,
and he shut the investigation down.
31.
Thus, in 2012, Defendant Sharp covered up Campbell’s
destruction of Rials’ document and remained silent as to
same.
32.
In 2014, when Defendant Campbell wrote “A modern
guide to handle your scandal,” one of her weekly “society”
columns in The News-Star, Rials believed that Campbell
was goading him and gloating over the fact that she had
gotten away with destroying his document. As a result,
he wrote to court personnel to again complain about
Campbell’s actions.
33.
Upon information and belief, Rials was then ordered to
reduce his complaint of such felonious conduct to writing,
which he did. The Court then appointed Defendant Jones
to investigate, which is a purely administrative task, Rials’
complaint of Campbell’s felonious misconduct.

71a
Appendix B
34.
It is believed that during the investigation, Defendants
Sharp and Jones interviewed an unbiased disinterested
witness who personally saw and heard Campbell sitting
in a bar boasting about shredding Rials’ document so that
Sharp could not review it.
35.
Once the eyewitness, a local attorney, was interviewed
and found credible, the “investigation” was closed and the
cover up began yet again.
36.
No official Fourth JDC records of the investigation
are believed to have survived Defendant Jones’ retirement
at the end of 2014. In fact, Defendants Winters and
Jones advised The Ouachita Citizen that there were no
discipline records involving Campbell which the Court
could provide in response to the newspaper’s request for
public records in March 2015.
37.
Further, during the trial of the Court’s suit against
The Ouachita Citizen, counsel for the Court argued to the
ad hoc judge that there was no “eyewitness” testimony
to Campbell’s alleged felonious destruction of court
documents.

72a
Appendix B
38.
Perhaps more importantly, although the Court
admitted that it had Rials’ written complaint, it argued
that Campbell’s destruction of court documents was a
mere “personnel matter,” and that Campbell’s privacy
rights outweighed the tax-paying public’s right to know
whether a Court employee was destroying documents.
39.
Additionally, upon information and belief, when the
Clerk of Court could not locate 52 writ applications which
had been “missing” for over a year, it was discovered that
Campbell, who was clerking for Defendant Sharp at the
time, had used the applications as an end table in her
office. Nonetheless, it does not appear that she was over
reprimanded, much less punished, for same.
40.
Thus, Palowsky submits that not only were Defendant
Judges complicit in Defendant Campbell’s felonious
destruction of documents, but they also schemed and
conspired with her to cover up same from the tax-paying
public and from litigants and their counsel. Defendant
Judges’ affirmative acts to cover up Campbell’s felonious
conduct amounts to misprision of a felony.

73a
Appendix B
Defendants’ Actions in Palowsky v. Cork
41.
At all times pertinent to his causes of action against
Defendants, Palowsky and AESI, derivatively, have been
plaintiffs in the matter of Palowsky v. Cork et al, Docket
No. 13-2059 of the Fourth JDC.
42.
After the missing 52 writ applications were found
in Campbell’s office, she was reassigned to Defendant
Amman, who is her close friend and personal confidant,
and Defendant Rambo, who was presiding over Palowsky’s
suit against Cork at the time.
43.
This re-assignment led to Palowsky’s becoming the
most recent victim of Defendant Campbell’s malicious
and intentional destruction of documents and Defendant
Judges’ cover up of same.
44.
In Palowsky v. Cork, Plaintiff filed suit against W.
Brandon Cork, the other 50-percent shareholder of AESI,
for damages he suffered as a result of Cork’s theft, fraud,
racketeering, and breach of fiduciary duty, the latter of
which Cork testified was done, at least in part, at the
direction of his counsel therein. 2
2. In his deposition, Cork swore under oath in the presence of
his counsel, Thomas M. Hayes, III, and Brandon Creekbaum, that

74a
Appendix B
45.
Upon information and belief, Defendant Campbell
maliciously and intentionally harmed Palowsky and willfully
violated his constitutionally-protected rights to both due
process3 and access to courts4 in Palowsky v. Cork when
she spoliated, concealed, removed, destroyed, shredded,
withheld, and/or improperly “handled” court documents
such as memoranda of law, orders, pleadings, sealed court
documents, and chamber copies of pleadings filed with the
clerk and hand-delivered to Defendant Rambo’s office.
46.
Upon information and belief, Defendant Campbell
maliciously withheld and concealed documents and
pleadings in the trial court as well as from the record
that was sent to the Second Circuit Court of Appeal for
its review of an application for supervisory writs filed by
Cork. Said documents include the following:
A. Plaintiff AESI’s Opposition to W. Brandon
Cork’s Motion to Strike Answer filed January
13, 2014. Notably, Defendant Rambo stated at the
beginning of the hearing on the motion to strike
that he had this pleading, yet it has remained
“missing” from the record.
he was under the “direction” of said counsel when he competed with
ABSI without telling Palowsky.

3. La. Const. Art. 1 § 2.
4. La. Const. Art. 1 § 22.

75a
Appendix B
B. Plaintiff’s Memorandum in Support of his Motion
to Clarify Protective Order filed March 14, 2014.
While the motion itself is included in the record,
the supporting memorandum (with attached
exhibits) was not in the record or in an envelope
of sealed exhibits sent to the Second Circuit.
C. AESI’s Reply Memorandum to Clarify Language
in Protective Order to Allow Proper Reporting
of Crimes, Tax Fraud, Racketeering, and
Conspiracy filed June 24, 2014, with attached
correspondence among counsel for the respective
parties.
D. AESI’s Original Opposition to Writ Application of
W. Brandon Cork filed on or about July 15, 2014.
For some reason, this pleading was missing from
the Second Circuit’s record, which was prepared
by the trial court, though Cork’s application filed
June 18, 2014, was included in the envelope of
sealed documents filed with the appellate court.
E. Third Amending and Supplemental Petition
of Plaintiff, Stanley R. Palowsky, and Third
Par ty Demand of Defendant, A lternative
Environmental Solutions, Inc., with attached
order requesting leave to file same filed on
August 13, 2014. 5 Although this pleading itself
5. In this pleading, Palowsky and ARSI added Cork’s counsel as
defendants for their participation in Cork’s racketeering activities.
The trial court never actually granted leave to file said pleading, so
Palowsky and AESI were forced to file a separate suit, docket number
14-2412, against Cork’s counsel. That suit has now been consolidated
with Palowsky’s original suit against Cork.

76a
Appendix B
was missing from the record sent to the Second
Circuit, Cork’s memorandum in opposition to
same was not.
F. Palowsky’s and AESI’s Memorandum in Support
of Motion to Recuse Judge Rambo as well as
exhibits attached to same. This pleading is
discussed more specifically below.6
47.
Notably, such actions should constitute a violation of
La. R.S. 14:132, the criminal statute which addresses the
destruction or alteration of public records and sets forth
the punishment for same.
48.
As set forth above, such actions by Campbell of
repeatedly and maliciously withholding and concealing
“missing” court documents were part of a proven pattern
of misconduct outside the course and scope of her duties
as a law clerk but under color of law.
49.
Palowsky avers that Campbell undertook these acts
with malice and with the intention not only to cause him
loss and to injure and inconvenience him, but also to obtain
6. The trial court’s record was reviewed again on July 22, 2015,
and the pleadings listed herein are still missing from the record.

77a
Appendix B
unjust advantages for his opponent(s) and their counsel. At
the very least, these actions constitute fraud per Louisiana
Civil Code article 1953.
50.
Campbell’s supervising judges at the time, Defendants
Amman and Rambo, did not just sit back quietly and let
Campbell commit such acts, they actively worked and
schemed to cover up her actions.
51.
Additionally, Defendants Rambo, Jones, Sharp, and
Winters have repeatedly denied that any documents were
missing from the record of Palowsky v. Cork but Palowsky
has proven otherwise.
52.
Plaintiff was forced to file a motion to recuse
Defendant Rambo in his suit against Cork after the
following significant events involving Campbell, Defendant
Rambo’s law clerk at the time, occurred:
A. Campbell published and declared in the Sunday
edition of the Monroe newspaper The NewsStar her bias, favoritism, and praise for Cork’s
counsel Thomas M. Hayes, III, when she wrote
in her weekly “society” column that he, as well as
Judge D. Milton Moore, III, of the Second Circuit
Court of Appeal, had the “IT” factor, “a somewhat

78a
Appendix B
undefinable quality that makes you and everyone
else around stand taller when they enter the
room, listen a little more closely, encourage you
to take fashion or life risks, make each occasion a
little more fun, and generally inspire you to aim
to achieve that ‘IT’ factor for yourself.”
B. Many of Palowsky’s filings went missing from the
record and/or were withheld from Judge Rambo
in status conferences and hearings as noted
above.
C. Palowsky learned that Campbell had been
investigated in 2012 by Defendant Sharp and
again in 2014 by Defendants Sharp and Jones
for destruction of Cody Rials’ court document
as stated above. Even though Campbell’s
conduct had been corroborated by an eyewitness
interviewed by Defendant Sharp who stated that
Campbell boasted in a local bar that she had,
indeed, shredded or withheld a court document
in order to cause loss, injury, or inconvenience to
attorney Rials, Defendant Judges refused to do
anything to control, much less punish, Campbell.
This showed Palowsky that Campbell had aptly
demonstrated that she was beyond supervision,
let alone discipline, and furthermore that
Defendant Judges were covering up her actions.
D. In 2014, Defendant Jones was appointed to
investigate complaints that Campbell was
improperly “handling” Palowsky’s filings.

79a
Appendix B
Defendant Jones concluded that the missing
documents resulted from nothing more than
delays caused by a new “filing process” in the
Clerk’s office. Nevertheless, the Clerk of Court
advised counsel for Palowsky that the new “filing
process” referenced by Defendant Jones did not
exist.
E. Also in 2014, Campbell published the abovementioned column entitled “A modern guide to
handle your scandal” declaring that “half the
fun is getting there, and the other half is in the
fix. . . .” She went on to advise her readers as
follows:
[F]or the more adventurous among
us, keep the crowd guessing. Send it
out — lies, half truths, gorilla dust,
whatever you’ve got. . . . [Y]ou are on the
receiving end of one of the highest forms
of flattery, as we always say “you’re no
one until someone is out to get you.” That
special somebody cared enough to try
and blacken your reputation and went
and turned you into a household name?
Bravo. You’re doing something right.
53.
After having so many of his pleadings vanish, after
learning that Defendants Jones and Sharp had covered up
Campbell’s destruction of documents in another case, and

80a
Appendix B
after reading in black and white that Defendant Rambo’s
law clerk publicly and proudly advocated lying as a way to
deal with a “scandal,” Palowsky realized that he could not
have Campbell or Defendant Rambo, for whom she worked
and who allowed her to publish such “advice,” handle his
case if he wanted it done fairly.
54.
Palowsky filed the motion to recuse Defendant Rambo
to escape recurring abuses of process, bias, prejudice,
and the problem of his pleadings frequently disappearing.
In compliance with this Court’s local rules, Palowsky
contemporaneously filed a supporting memorandum with
the Clerk of Court detailing the facts and circumstances,
including Campbell’s actions, which justified his recusal
request. Moreover, counsel hand delivered a copy of same
to Judge Rambo’s chambers.
55.
Shortly after the recusal motion and memorandum
were filed, Defendant Rambo held a status conference
wherein he expressed his extreme displeasure to
Plaintiff’s counsel that Plaintiff had filed a motion to
recuse without a supporting memorandum. Counsel for
AESI and Palowsky advised Defendant Rambo that was
exactly why they were asking him to recuse himself, i.e.,
because their filings were obviously being intercepted
before he could read them.

81a
Appendix B
56.
Obviously Defendant Campbell had, once again,
acted outside the course and scope of her employment
to intentionally harm Palowsky by withholding and/or
concealing court documents and wrongfully thwarting his
constitutional rights to due process and access to courts.
57.
After Palowsky and AESI suffered harm which
was intentionally and maliciously inflicted upon them in
Defendant Rambo’s court for more than two years by
Campbell in her efforts to damage them and to assist
their opponents and their counsel, Defendant Rambo,
while denying bias, recused himself without a hearing.
Palowsky’s case was then assigned to Defendant Sharp.
58.
Palowsky then filed a motion to recuse the Fourth
JDC judges en banc on the basis that Campbell and the
Court had become inextricably intertwined in litigation
when Defendant Winters, on behalf of all the judges, filed
suit against The Ouachita Citizen to protect Defendant
Campbell’s alleged privacy rights as discussed in
paragraphs 18 through 26 above.
59.
Palowsky’s motion to recuse has recently been set for
hearing in front of Defendant Sharp on August 20, 2015;

82a
Appendix B
however, he has informed all counsel in writing that he is
not going to allow any testimony to be submitted during
that hearing. Such refusal to hear evidentiary testimony
is a clear violation of Palowsky’s rights of due process and
meaningful access to courts and is being done for the sole
purpose of continuing the cover up.
60.
Palowsky avers that Defendant Judges’ actions have
been undertaken to cover up Campbell’s misdeeds and
felonious acts and to prevent any testimony or evidence
of same from becoming part of the record in his litigation.
61.
Palowsky submits that his allegations against
Campbell and Defendant Judges must be viewed in light
of other actions she has taken during her employment
and the judges’ concealing of same all as set forth above
in paragraphs 9 through 40.
62.
Palowsky also submits that his allegations must be
considered in light of Defendant Campbell’s personal
philosophies on life which she has smugly published in
her weekly “society” column during his litigation and
which might lead one to believe that she is, to put it mildly,
narcissistic and incapable of submitting to any authority.

83a
Appendix B
63.
For example, on May 31, 2015, she wrote, “You will
always be fond of me. I represent to you all the sins you
have never had the courage to commit,” a quote which
she attributed to Oscar Wilde before he was imprisoned.
64.
On February 15, 2015, she quoted Oscar Wilde again
when she said that “to love oneself is the beginning of a
lifelong romance.”
65.
On April 5, 2015, she told her readers as follows: “I
say live life to the fullest, follow no one’s rules except your
own (and law enforcement, of course) and continue to excel
at your own personal spectacular talents.”
66.
On April 12, 2015, she ended her column by quoting
Henry Rollins: “In winter, I plot and plan. In spring, I
move.”
67.
On June 14, 2015, Campbell again cited Oscar
Wilde and stated, “Consistency is the last refuge of the
unimaginative.” She then described how she “concocted
. . . a faux rom-com worthy ‘don’t leave me’ airport scene,”

84a
Appendix B
and she professed, “goodness, I love attention.” She then
closed her column with W. David Johansen’s words “I
am doing exactly what I want to do, and I am having fun
doing it.”
68.
Oh June 21, 2015, Campbell wrote, “Escape the
ordinary. Almost anything is possible if you have enough
time and enough nerve.”
69.
On July 12, 2015, she penned, “It’s not cheating if it’s
in our favor.”
70.
In another blatant display of narcissism, when
Campbell’s alleged improprieties and the litigation
between the Court and The Ouachita Citizen were
reported on by The Acadiana Advocate, Campbell posted
a comment on the paper’s online site and stated as follows:
“Dear advocate [sic]: first of all my name is spelled Allyson,
not Allison.” She then went on to explain the role of an
ad hoc judge.
71.
Palowsky notes that by allowing Campbell to write
her weekly “society” column in which she has published
articles which clearly show her admiration for Palowsky’s

85a
Appendix B
opponent’s attorney Hayes, by failing to properly supervise
her, and by allowing, either directly or indirectly, her to
withhold court documents in order to delay proceedings
and harm Palowsky, Defendants Rambo, A mman,
Winters, Jones, and Sharp have violated multiple Canons
of the Code of Judicial Conduct
72.
For example, Canon 3(A)(3) requires that a judge have
his staff be “patient, dignified, and courteous” to litigants
and lawyers.
73.
Canon 3(A)(4) states that a judge shall not permit his
staff to “manifest bias or prejudice” through “conduct or
words.”
74.
Canon 3(A)(8) prohibits a judge and his personnel from
“mak[ing] any public comment that might reasonably be
expected to affect [a pending proceeding’s] outcome or
impair its fairness . . . .”
75.
Canon 3(B)(2) states that a “judge shall require
staff, court officials and others subject to the judge’s
direction and control to observe the standards of fidelity
and diligence that apply to the judge and to refrain from

86a
Appendix B
manifesting bias or prejudice in the performance of their
official duties.”
76.
Palowsky notes that Article V, § 25(C) of the Louisiana
Constitution provides in pertinent part as follows:
On recommendation of the judiciary commission,
the supreme court may censure, suspend
with or without salary, remove from office,
or retire involuntarily a judge for willful
misconduct relating to his official duty, willful
and persistent failure to perform his duty,
persistent and public conduct prejudicial to the
administration of justice that brings the judicial
office into disrepute, conduct while in office
which would constitute a felony, or conviction
of a felony.
77.
Regardless of Defendant Campbell’s writings in
her society column, Palowsky states that her actions of
improperly handling pleadings and filings appear to be
not only habitual, but also, at the very least, to be tacitly
approved by Defendant Judges as she has apparently
never even been reprimanded, much less disciplined, for
same by any of them.

87a
Appendix B
78.
It is more likely, though, that Campbell’s actions
have been purposely concealed by Defendant Judges in
a scheme to maliciously defraud and harm Palowsky and
deprive him of his constitutional rights to due process and
access to courts.
Recusal of All Judges of This Court
79.
Palowsky avers that all the judges of the Fourth
JDC should recuse themselves from this matter since
Defendants are employees of the Court.
80.
Moreover, as discussed above, this Court, through
Defendant Judges, has an apparent history of protecting
Campbell even though several attorneys in different cases,
including Palowsky v. Cork, have complained about her
suspected felonious destruction of documents and even
though she has reportedly been investigated for public
payroll fraud.
81.
Not only has this Court allowed Campbell to do as she
pleases at the courthouse without recourse, but as noted
above, it chose to sue a local newspaper to protect her
employment records from being made public, and therein,

88a
Appendix B
it denied that there were any eyewitnesses to Campbell’s
destruction of documents even though Defendants Jones
and Sharp reportedly interviewed an eyewitness who
personally heard Campbell bragging about same.
82.
The above facts and circumstances require that the
Fourth JDC be recused en banc and an ad hoc judge be
appointed to hear and decide the instant lawsuit.
Requests for Relief
83.
To date, Plaintiff has endured more than two years of
needless delay, court costs, attorney fees, embarrassment,
mental stress, and inconvenience (as referred to in Civil
Code article 1953) and has, likewise, been denied his
constitutional rights to due process of law and access to
courts as a result of Campbell’s pattern of malicious and
intentional misconduct and Defendant Judges’ complicity
in same.
84.
Campbell’s wrongdoings have been reported time
and again by different attorneys in different cases and
investigated time and again by Defendant Judges but have
nevertheless been allowed to continue. It is now painfully
apparent that not only has Campbell been unsupervised
and uncontrollable for years, but Defendant Judges

89a
Appendix B
have actively schemed to allow her conduct to continue
unabatedly.
85.
Palowsky avers that Campbell’s and Defendant Judges’
actions constitute fraud, conspiracy to commit fraud, abuse
of process, destruction or concealment of public records,
misprision of felonies, intentional infliction of emotional
distress, and violation of his rights under the Louisiana
Constitution to due process and access to courts.
86.
Palowsky therefore states that he, individually and on
behalf of AESI, is entitled to be compensated for any and
all damages that he and AESI have suffered as the result
of Defendants’ fraud, conspiracy to commit fraud, abuse
of process, destruction or concealment of public records,
misprision of felonies, intentional infliction of emotional
distress, and violation of his Louisiana constitutional
rights to due process and access to courts.
87.
law.

At this time, Plaintiff seeks no relief under any federal
88.

Palowsky hereby requests a trial by jury on all his
claims, including without limitation, his intentional tort
claim.

90a
Appendix B
WHEREFORE, Plaintiff, Stanley R. Palowsky, III,
individually and on behalf of AESI, prays that after due
proceedings are had, there be judgment rendered herein
in favor of Plaintiff and against Defendants, Allyson
Campbell, Judge H. Stephens Winters, Judge Carl V.
Sharp, Judge Benjamin Jones, Judge J. Wilson Rambo,
and Judge Frederic C. Amman, for all sums as are fair and
just under the circumstances, together with reasonable
attorney fees and court costs.
Plaintiff further prays for all orders and decrees
necessary and proper under the premises and for full,
general, and equitable relief.
Respectfully submitted,
/s/ Sedric E. Banks		
SEDRIC E. BANKS #2730
Attorney at Law
1038 North Ninth Street
Monroe, La. 71201
318-388-1655 telephone
318-388-0227 facsimile
-and/s/ Joseph R. Ward, Jr.
Joseph R. Ward, Jr. # 8166
Ward & Condrey
206 North Jefferson Ave.
Covington, La. 70433
985-871-5231 telephone
985-871-5324 facsimile
Attorneys for Plaintiff, Stanley R.
Palowsky, III

91a
Appendix B
WHIPPLE, C.J., concurring in part and dissenting in
part.
Under the facts of this case, to the extent that the
majority opinion finds that the judges herein are granted
absolute immunity for their alleged acts of wrongdoing
and affirms the trial court’s judgment maintaining the
judges’ peremptory exception of no cause of action, I agree
with the majority. I also concur in the majority opinion
insofar as it affirms in part and reverses in part the trial
court’s judgment on the motions to strike by the judges
and Ms. Campbell. I disagree, however, with the portion
of the majority’s opinion that reverses the trial court’s
judgment maintaining the peremptory exception of no
cause of action urged by Ms. Campbell.
As the U.S. Supreme Court has recognized, few
doctrines were more solidly established at common law
than the immunity of judges from liability for damages
for acts committed within their judicial jurisdiction.
Pierson v. Ray, 386 U.S. 547, 553-554, 87 S.Ct. 1213,
1217, 18 L.Ed2d 288 (1967). Such immunity applies
however erroneous the act may have been, and however
injurious in its consequences it may have proved to the
plaintiff. Bradley v. Fisher, 80 U.S. 335, 13 Wall. 335, 347,
20 L.Ed. 646 (1871). Judges are immune from damage
claims arising out of acts performed in the exercise of
their judicial functions, even when the judge is accused of
acting maliciously. Mitchell v. McBryde, 944 F.2d 229, 230
(5th Cir. 1991). Moreover, the judge is absolutely immune
for all judicial acts not performed in clear absence of
all jurisdiction, however erroneous the act and however

92a
Appendix B
evil the motive. Mitchell v. McBryde, 944 F.2d at 230.
A judge will not be deprived of immunity because the
action he took was in error, was done maliciously, or was
in excess of his authority; rather, he will be subject to
liability only when he has acted in the clear absence of all
jurisdiction. Dellenbach v. Letsinger, 889 F.2d 755, 759
(7th Cir. 1989). The concern for the integrity of the judicial
process underlying the absolute immunity of judges also is
reflected in the extension of absolute immunity to “certain
others who perform functions closely associated with the
judicial process.” Oliva v. Heller, 839 F.2d 37, 39 (2nd Cir.
1988), quoting Cleavinger v. Saxner, 474 U.S. 193, 200,
106 S.Ct 496, 500, 88 L.Ed.2d 507 (1985).
Thus, applying this analysis, courts have granted
absolute immunity to court clerks where they were
performing discretionary acts of a judicial nature. Oliva
v. Heller, 839 F.2d at 39. In contrast to court clerks, who
frequently perform ministerial functions, a law clerk
generally performs discretionary acts of a judicial nature.
Indeed, a law clerk is probably the one participant in the
judicial process whose duties and responsibilities are
most intimately connected with the judge’s own exercise
of the judicial function. Oliva v. Heller, 839 F.2d at 40.
For purposes of absolute judicial immunity, judges and
their law clerks are as one. Oliva v. Heller, 839 F.2d at
40. Accordingly, when assisting the judge in carrying
out judicial functions, the judge’s law clerk is likewise
entitled to absolute immunity. Mitchell v. McBryde, 944
F.2d at 230.

93a
Appendix B
Applying these precepts to the instant case, the
petitions herein allege that Ms. Campbell caused harm
to plaintiff by maliciously and intentionally destroying,
concealing, removing, withholding, and/or improperly
handling court documents pertaining to civil litigation
filed by plaintiff The petitions further allege that the
judges caused harm to plaintiff by concealing and/or
covering up Ms. Campbell’s misdeeds, failing to properly
supervise, investigate, or reprimand Ms. Campbell, and
in allowing Ms. Campbell to withhold court documents in
order to delay proceedings.
In rendering judgment, the trial court determined
that there was no distinction in the application of immunity
to both Ms. Campbell and the judges, finding that
“[t]he question of whether a law clerk should be granted
immunity is generally tied to the judge being granted
immunity because they generally occur at the same time.”
With reference to the application of absolute judicial
immunity to Ms. Campbell, the trial court held that
“[h]er actions, alleged actions, regarding mishandling
and destroying documents in the plaintiff’s lawsuit
are nonetheless actions involving a pending case in the
judicial process [such that] under the law [she] is entitled
to absolute immunity as directed by the cases and the
body of jurisprudence that governs this concept.” I am
constrained to agree.
In my view, the handling of evidence is incidental
to the discharging of a judge’s duties. Moreover, as the
jurisprudence demonstrates, even if such handling (or
mishandling) was performed with malice or wrongful

94a
Appendix B
intent resulting in the destruction of evidence, a law clerk
is entitled to the same absolute immunity for civil liability
afforded judges. See Mitchell v. McBryde, 944 F.2d at
230; Dellenbach v. Letsinger, 889 F.2d at 759, For these
reasons, I respectfully disagree with the portion of the
majority’s opinion that reverses the trial court’s judgment,
which had maintained Ms. Campbell’s peremptory
exception of no cause of action.

95a
Appendix B
HOLDRIDGE, J., concurring in part and dissenting in
part
For the reasons stated by Chief Judge Whipple, I
concur in part and dissent in part. I further add that
even taking into consideration all of the allegations that
were stricken by this court, the defendants are still
entitled to absolute immunity. In this case, the only
damages that could be caused to the plaintiffs by any of
the defendants would be in connection to the plaintiffs’
lawsuit in the Fourth Judicial District Court. As to any
court proceedings, it is without question that both the
judge and the law clerk have absolute immunity. However,
in accordance with Louisiana Code of Civil Procedure
article 934, I would allow the plaintiffs an opportunity to
amend their petition, as to Ms. Campbell only, to allege
any facts whereby the plaintiffs were damaged by any
action of Ms. Campbell that were not related to judicial
proceedings.

96a
Appendix B
CRAIN, J., agreeing in part and dissenting in part.
I agree with the majority decision to reinstate the
stricken paragraphs of the pleadings and finding the law
clerk does not enjoy judicial immunity for her nonjudicial
acts. From the remainder of the majority opinion, I
dissent. I recognize that all of the allegations made in
the petition, which are disturbing and injurious to the
esteem and dignity of the judiciary, may be unprovable
or provably false.1 However, the procedural posture in
which this matter is presented, an exception of no cause
of action, requires that I make my decision accepting the
well-pleaded facts in the petition as true. See McCarthy
v. Evolution Petroleum Corp., 14-2607 (La. 10/14/15), 180
So. 3d 252, 257 (La. 10/14/15).
Judicial immunity is of the highest order of importance
in maintaining an independent judiciary, free of threats
or intimidation. But it is a judge-created doctrine policed
by judges. And while there are safeguards in the judicial
process that reduce the need for private damage actions
against judicial actors, when judicial actors perform nonjudicial acts, they are not protected by this otherwise
sweeping immunity doctrine. Cf. Mireles v. Waco, 502
U.S. 9, 11-12, 112 S.Ct. 286, 288, 116 L.Ed.2d 9 (1991).
Whether an act is judicial or non-judicial is determined
by “the nature of the act itself, i.e., whether it is a function
normally performed by a judge, and to the expectations
1. The gravity of these allegations cannot be overemphasized,
as one making them falsely is subject to being held accountable for
doing so. See, e.g., La. Code Civ. Pro. art. 863; Supreme Court Rules
— Rule 19, §6.

97a
Appendix B
of the parties, i.e., whether they dealt with the judge in
his judicial capacity.” Stump v. Sparkman, 435 U.S. 349,
362, 98 S. Ct. 1099, 1107, 55 L.Ed.2d 331 (1978). “[T]he
relevant inquiry is the ‘nature’ and ‘function’ of the act, not
the ‘act itself.’” Mireles, 502 U.S. at 13, 112 S. Ct. at 288.
The petition alleges the law clerk “spoliated,
concealed, removed, destroyed, shredded, withheld, and/
or improperly ‘handled’ court documents.” The nature of
these acts relate to maintenance of court records. The
duty to maintain records in cases involves many nonjudicial actors, and can only be considered a ministerial,
not judicial, act. See Ex parte Commonwealth of Virginia,
100 U.S. 339, 348, 25 L.Ed. 676 (1879) (reasoning that jury
selection was a ministerial rather than judicial function,
even though performed by a judge, since the duty might
as well have been committed by a private person). The
allegations do not relate to the exercise of discretion in
connection with an adjudicatory function. Consequently,
I agree with the majority that the facts alleged in the
petition, accepted as true to decide the exception of no
cause of action, bring the cause of action against the law
clerk outside the scope of judicial immunity.
As to the judges, the petition alleges they “aid[ed] and
abet[ted] [the law clerk] by allowing her free rein to do
as she pleased and then conspire[ed] to conceal [the law
clerk’s] acts.” For the same reasons the law clerk is not
immunized for her non-judicial acts related to maintaining
court records, the judges are not immunized for allegedly
aiding, abetting, then concealing those acts. Failing to
supervise a law clerk relative to a non-judicial act is not a

98a
Appendix B
judicial act for purposes of immunity. 2 Rather, the alleged
failure to “supervise” in this context is more akin to an
administrative responsibility, which is not within the
scope of absolute judicial immunity. Antoine v. Byers &
Anderson, Inc., 508 U.S. 429, 436, 113 S. Ct. 2167, 2172,
124 L.Ed.2d 391 (1993). Thus, I likewise find the judges
not immune from suit based on these allegations, accepted
as true to decide the exception of no cause of action, and
dissent from the majority’s decision to the contrary.
Finally, the facts alleged in the petition, which, again,
must be accepted as true for purposes of the exception,
arguably satisfy the essential elements of a crime, namely
injuring public records, then concealing it. See La. R.S.
14:132; see also La. R.S. 14:25. The doctrine of judicial
immunity does not shield judicial actors from civil liability
for criminal acts. See Mireles, 502 U.S. at 9-10, n.1, 112
S. Ct. at 287, n.1. Many decisions in Louisiana recognize
actions based on malice or corruption are outside the
scope of judicial immunity. E.g., McCoy v. City of Monroe,
32,521 (La. App. 2 Cir. 12/8/99), 747 So. 2d 1234, 1241,
writ denied, 00-1280 (La. 3/30/01), 788 So. 2d 441; Moore
v. Taylor, 541 So. 2d 378, 381 (La. App. 2 Cir. 1989);
Cleveland v. State, 380 So. 2d 105 (La. App. 1 Cir. 1979);
Conques v. Hardy, 337 So. 2d 627 (La. App. 3d Cir. 1976);
Berry v. Bass, 157 La. 81, 102 So. 76 (1924); State ex rel.
Duffard v. Whitaker, 45 La. Ann. 1299, 14 So. 66 (1893).
2. Even if supervising the law clerk in this case was considered
a judicial act, reason dictates that only the presiding judge actually
supervising the law clerk has immunity. Here, all the judges are
draped with immunity, even those not presiding over the case and
directly supervising the law clerk.

99a
Appendix B
While later cases suggest judicial immunity extends
even to judicial acts performed with malice, those cases
do not immunize judicial actors from criminal conduct
grounded in malice or corruption. See Martin v. Joan
Malbrough & Associates, 13-0864, 2014 La. App. Unpub.
LEXIS 72, 2014 WL 651535, p.1 (La. App. 1 Cir. 2/18/14).
Extending the doctrine of judicial immunity to include
civil liability for alleged criminal conduct, as in this case,
risks undermining the public’s trust in the judiciary, which
I cannot countenance.

100a
Appendix C
APPENDIX C — TRANSCRIPT
OF HEARING
OF THE STATE OF LOUISIANA, PARISH OF
OUACHITA, OF THE FOURTH JUDICIAL
DISTRICT, DATED NOVEMBER 5, 2015
STATE OF LOUISIANA
PARISH OF OUACHITA
FOURTH JUDICIAL DISTRICT
STANLEY R. PALOWSKY, III INDIVIDUALLY
AND ON BEHALF OF ALTERNATIVE
ENVIRONMENTAL SOLUTIONS, INC.
VERSUS
NUMBER 2015-2179
ALLYSON CAMPBELL
JUDGE JEROME J. BARBERA, III
AD HOC
BE IT KNOWN AND REMEMBERED that upon the
hearing of the MOTION FOR NO CAUSE OF ACTION
and MOTION TO STRIKE in the above styled and
numbered case in the Fourth District Court, Parish of
Ouachita, State of Louisiana, on the 5th day of November,
A.D., 2015, before Honorable Jerome J. Barbera, III,
Judge Ad Hoc, at Monroe, Louisiana, the following
proceedings were had, to wit:
***
[pg. 16] 9:27 -- 2798.1(B) and point -- small one and small
two. Absolutely does not apply to this case. So Your Honor,

101a
Appendix C
they’ve never distinguished Forrester versus White. We
think it’s the controlling case, and we would ask the court
to deny the motion.
BY THE COURT:
Any rebuttal?
BY MR. GUICE:
Your Honor, we’ve briefed Forrester. The court has
read it.
BY THE COURT:
All right. I’ll first address the Exception of No Cause
of Action filed by the judges. The court will sustain the
Exception of No Cause of Action filed by the judges. The
petition against the judges is dismissed with prejudice for
the following reasons: The petition in this case and I’ve
recited this once before, but I’m going to do it again on
this exception. The petition in this case alleges that
Allyson Campbell, a law clerk to judges of this district
and an employee of the court, caused harm to the plaintiff
by her actions in concealing, destroying, removing,
withholding and improperly handling pleadings and court
documents pertaining to civil litigation filed in this district
by the plaintiff against a former business associate. The
petition further alleges that the named defendant judges
are liable to the plaintiff for damages as a result of their
aiding and abetting Ms. Campbell and conspiring to
conceal her actions. These comments that I have just made

102a
Appendix C
about the petition is my summary of what this case is
about. I understand that lay people have difficulty
grasping the concept of judicial immunity. It seems to be
something that is foreign to a discussion of what’s right
or wrong or what’s good or bad. When you say that an
elected official is immune from liability, civil liability,
immune from civil liability because of something that he
or she did or didn’t do it provokes concern, it provokes
probably some other emotions because it doesn’t seem that
it is fair to the litigant. Judicial immunity though has
reasons that are deeply rooted in our judicial [pg. 17]
system where judges should not have to answer to a
litigant for a decision that he or she has made. There are
appellant courts that serve that function. There are other
agencies and bodies that react and apply other laws to the
conduct of judges both in and out of the courtroom. The
issue of judicial immunity though has been a part of our
law for a long, long time. The Louisiana courts have often
in fact more often than not cited Federal cases in support
of decisions because of the lack of much jurisprudence in
the Louisiana court system. So it’s an important concept
that’s part of our judicial process. It is deeply rooted in
our law, and it is the law of the land. Judicial immunity
it’s the law ofthe land with regard to actions of judges
when their actions are considered to be within the
guidelines for a determination of whether the immunity
should be applied or not. According to the case law a judge
is absolutely immune from the claims of a litigant when
number one, the complained of action is judicial in nature,
and number two, the act is within the judge’s jurisdiction.
And that second requirement has greater meaning than
what lawyers generally ascribe to the term jurisdiction.

103a
Appendix C
We generally talk about jurisdiction as being maybe
geographical and maybe being monetary in some cases
and in some cases it has to do with the constitution says
is what this judge does and doesn’t do and what this judge
does and doesn’t do. It’s the definition of the scope of
responsibility and authority that a judge has, but in the
context of judicial immunity the judge’s jurisdiction can
go beyond that and as applied to this case of course it does.
There’s nothing in the constitution about law clerks that
I’m aware of. There’s nothing in the constitution about
what a law clerk should do or not do. There’s nothing in
the constitution about what judges are required to do with
regard to their law clerks. There is no question in my mind
that supervision and control of a law clerk employed by a
district court is something that would be withi n the
jurisdiction of a district court judge. Who else in a district
court would be expected to supervise, [pg. 18] control,
instruct, assign work to a law clerk? It would have to be
the district judge. The judge has to decide what cases to
give to the clerk. The judge has to decide what he wants
the clerk to do with regard to those cases. That clerk might
have other duties, but all of the duties of the clerk of course
are what the judge decides they should be or not be. So
there’s no doubt that with regard to the actions of the
judges in this case in their contact with and in their
relationship as the employer of Ms. Campbell that their
actions are within their jurisdiction. The other factor is
whether the actions are judicial in nature is what is -seems to be the most contention in this case. So to
determine whether the act is judicial in nature we refer
to the four factors that come from the jurisprudence, from
the Federal cases. I’ve looked at many of the cases that

104a
Appendix C
were cited. We have a Louisiana case Haley versus Leary
which is a 2010 Fourth Circuit case, and I also read with
great interest for a lot of reasons because I know Judge
Gonzales the case of Malina versus Gonzales which is a
Federal case involving a district court judge from East
Baton Rouge who took some actions with regard to a
motorist that ended up in court. So let’s look at Malina
on the four factors. The four factors to determine whether
actions are judicial in nature or whether the precise act
complained of is a normal judicial function, whether the
acts occurred in the courtroom or appropriate adjunct
spaces such as the judge’s chambers, whether the
controversy centered around a case pending before the
court, and whether the acts arose directly out of a visit to
the judge in his official capacity. I’ve already stated in
reference to the jurisdiction issue about whether or who
is involved in the assignment of work and supervision of
law clerks and certainly that is a normal judicial function,
the supervision, management, assignment, and control of
a law clerk is certainly a normal judicial function. There’s
no one else to perform that function. There’s no one else
that should perform that function. So number one is clearly
satisfied. Number two, is whether the acts occurred in the
courtroom or appropriate adjunct spaces. [pg. 19] Well,
certainly there’s no allegation that -- and of course the
accusation that someone failed to supervise is not
something that would be allotted to a particular space or
geographic idea, and we’re reminded with regard to
actions in the Malina versus Gonzales case that the
question about the act is not the act itself. It’s the nature
and function of the act. So if there’s a complaint that a
judge failed to supervise or conspired in supervision or in

105a
Appendix C
concealing wrongful acts of a law clerk the question is not
whether the judge’s actions take him or her out of
immunity because you don’t examine the act itself. You
examine the nature and function of it, and that is the
contact between the judge and the law clerk which is a
judicial function. So that’s where the inquiry with regard
to immunity ends. It’s not with attempting to separate a
particular act out; it’s the nature and function of the act
which in this case is the allegation that the judges in their
role of supervision failed to act properly. Number three,
whether this controversy centered around a case pending
before the court? Well, there’s no doubt about that. That’s
exactly what the petition is about. That all of this was done
to the prejudice of Mr. Palowsky in the case of Palowsky
versus Cork. That’s what the case is about. So that factor
is met. The fourth factor, whether the acts arose directly
out of a visit to the judge in his official capacity? Those
-- that particular factor of course addresses issues or
situations where a judge may have made a ruli ng m the
courtroom that someone was aggrieved by. Circumstances
don’t always permit the application of that, and as Malina
says in some situations and I’m quoting from the Malina
case; immunity is to be afforded even though one or more
of the McAlester factors is not met, and certainly that is
the case here. Malina also reminds us that the concept of
immunity is to be broadly construed in favor of granting
immunity. The allegations of the petition against the
judges clearly fall inside these factors, and the judges in
this case are granted absolute immunity in the law for
their alleged acts of wrongdoing. Malina also tells us as
many other cases do that judicial [pg. 20] immunity is not
overcome by allegations of bad faith or even malice. It is

106a
Appendix C
the judge’s actions alone not their intent that is considered
in determining whether to grant immunity. Mr. Guice,
prepare a judgment in accordance with the court’s ruling.
BY MR. GUICE:
Thank you, Your Honor.
BY THE COURT:
All right. On the Exception of No Cause of Action by
Ms. Campbell the court will sustain the Exception of No
Cause of Action filed by Allyson Campbell and the petition
against Ms. Campbell is dismissed for the following
reasons. This was a new area for me so I was educated in
the consideration of whether to dismiss this case against
Ms. Campbell as a law clerk. The case law in this area has
developed over the years and the decisions are very clear
and leave no doubt as to the intent of the courts that have
considered these cases. The question of whether a law clerk
should be granted immunity is generally tied to the judge
being granted immunity because they generally occur at
the same time. Generally the cases involve a suit against
a judge and a clerk. The case cited by the plaintiff-- And
I’m trying to find my note on it. Williams versus Wood,
the U.S. Fifth Circuit case. It was a suit against a deputy
clerk of court. The plaintiff I believe referred to that case
as a suit against a law clerk, but the case -- the defendant
was not a law clerk. He was a deputy clerk of court where
there was a finding that he was not entitled to immunity,
but that case has no application to this case because he’s
not a law clerk. He was a clerk of court or a deputy clerk.

107a
Appendix C
The U.S. Supreme Court state in the 1978 case Butz
versus Economou, E-C-O-N-0-M-O-U; Butz is B-U-T-Z;
where the Supreme Coourt proclaims that officials whose
responsibilities are functionally comparable to those of a
judge are also absolutely immune from liability. And in
preparing for this hearing today I looked at several cases
but in particular three Federal cases, Oliva, O-L-I-V-A
versus [pg. 21] Heller, H-E-L-L-E-R, 839 F.2d Pg. 37,
1988 U.S. Second Circuit Court of Appeals case, Mitchell
versus McBryde, McBryde is M-C-B-R-Y-D-E, 944 F.2d
229, 1991 U.S. Fifth Circuit, and last Moore versus
Brewster, B-R-E-W-S-T-E-R, 96 F.3d Pg. 1240, U.S. Ninth
Circuit case. In Moore versus Brewster a litigant was
unhappy because he had obtained a monetary award in a
civil case. There was a bond posted to secure the judgment
pending appeal, but when the time came to collect on the
bond because of some other activity that the plaintiff
had been involved in including an arbitration proceeding
with one of the parties that he had the judgment against
where he received an unfavorable result the judge took
his bond money and applied it to some other claims
against him and he ended up with generally nothing. So
he was unhappy. He sued the judge and the judge’s law
clerk claiming that the judge had conspired with others
to rob him of the proceeds of the bond. The court in that
case did not hesitate to grant the same immunity to the
law clerk as it recited because of her place in the judicial
process and her close contact with the judges -- with the
judge and the exercise of the judicial function. So that was
the context. It was the law clerk’s position in the process
and her contact with the judge that she worked for or he
worked for and the exercise of the judicial function. And

108a
Appendix C
as the Supreme Court said in the case -- in the Butz case
the position of the clerk is functionally comparable to
that of a judge. And what the courts say is that it doesn’t
make any sense to grant immunity to the judge and then
leave the law clerk exposed to liability for being part of
the same judicial process. In the Mitchell case the judge
and his clerk were accused of maliciously conspiring to set
aside a default judgment that had been granted in a prior
case before the same judge. The court granted immunity
to the judge and the clerk. The court noted the fact that
it is alleged that the judge acted pursuant to a conspiracy
and committed grave procedural errors is not sufficient
to avoid absolute judicial immunity, and the court granted
the law clerk the same [pg. 22] immunity because she was
assisting the judge in carrying out the judge’s judicial
function. In the third case, the Oliva case, which is a suit
against a law clerk basically complaining about improper
actions that the law clerk took in the performance of
her duties. Interesting case. A law clerk working for a
Federal judge applies to the U.S. Attorney for a position
as a prosecutor, and she agreed to take the prosecutor’s
job. It was offered to her, but she would not take the job
until her tenure as a law clerk had ended. So between
the time that she accepted the job and the time that her
law clerk tenure was over she was doing post-conviction
work, reviewing applications for habeas and other relief
from incarcerated prisoners and the practice was that
she would not work on a case that the U.S. Attorney was
involved in unless the litigants agreed that she could do so.
The problem that happened in this case is that when Mr.
Oliva’s application came in the U.S. Attorney was involved
in the response, but Ms. Heller neglected to call that to

109a
Appendix C
the attention of Mr. Oliva and the court, and she was
sued by Mr. Oliva for damages. She was granted absolute
immunity. The court in granting her the immunity noted
that in the lower court decision, this was a court of appeal
case, Oliva, but of course because it was in the Court of
Appeal necessarily there was a district court decision, and
the Court of Appeal looked at the district judge’s decision
and noted that in the context of this law clerk working on
this case improperly that what she was doing is what the
judge would normally do. Judges always haven’t had law
clerks. There’s some judges in this state that still don’t
have a law clerk. So what judges do and what the court is
saying is that what law clerks do is what judges do. So if a
judge doesn’t have a law clerk then he has to do the entire
or she has to do the entire process. That doesn’t mean
that they have to do everything that a law clerk would
normally do, but the work that’s done by law clerks is the
work of judges. So what the court said in this case is that
they are as one for purposes of immunity. The court states
that the clerk performs acts of a judicial nature and their
duties and responsibilities are most closely connected to
the judge’s exercise of the judicial function.
****

110a
APPENDIX D —Appendix
DENIALDOF REHEARING
OF THE SUPREME COURT OF LOUISIANA,
DATED SEPTEMBER 6, 2019
SUPREME COURT OF LOUISIANA
278 So.3d 358 (Mem)
No. 2018-C-1105, No. 2018-C-1115
STANLEY R. PALOWSKY, III, INDIVIDUALLY,
AND ON BEHALF OF ALTERNATIVE
ENVIRONMENTAL SOLUTIONS, INC.,
v.
ALLYSON CAMPBELL, ET AL.
September 6, 2019
Applying for Rehearing, Parish of OUACHITA,
4th Judicial District Court Number(s) 15-2179, Court of
Appeal, First Circuit, Number(s) 2016 CA 1221;
ON WRIT OF CERTIORARI TO THE COURT OF
APPEAL, FIRST CIRCUIT, PARISH OF OUACHITA
Rehearing denied.
Johnson, C.J., would grant rehearing.
Crichton, J., would grant rehearing and assigns reasons.

111a
Appendix D
Chehardy, J., would grant rehearing.
Clark, J., recused.
Crichton, J., would grant rehearing and assigns
reasons. I would grant rehearing in this matter. In my
view, the per curiam places every judge in the State at risk
of retaliation and intimidation by disgruntled litigants. I
continue to believe that the per curiam risks eroding the
independence of the judiciary and adversely affecting the
public interest.

